<html>
<title> - PRESIDENT OBAMA'S TRADE POLICY AGENDA WITH U.S. TRADE REPRESENTATIVE MICHAEL FROMAN</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                 PRESIDENT OBAMA'S TRADE POLICY AGENDA
                     WITH U.S. TRADE REPRESENTATIVE
                             MICHAEL FROMAN

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION
                               __________

                             APRIL 3, 2014
                               __________

                          Serial No. 113-FC17
                               __________

         Printed for the use of the Committee on Ways and Means



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                        U.S. GOVERNMENT PUBLISHING OFFICE 

89-456                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
PAUL RYAN, Wisconsin                 JIM McDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
DAVID G. REICHERT, Washington        XAVIER BECERRA, California
CHARLES W. BOUSTANY, Jr., Louisiana  LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
JIM GERLACH, Pennsylvania            JOHN B. LARSON, Connecticut
TOM PRICE, Georgia                   EARL BLUMENAUER, Oregon
VERN BUCHANAN, Florida               RON KIND, Wisconsin
ADRIAN SMITH, Nebraska               BILL PASCRELL, Jr., New Jersey
AARON SCHOCK, Illinois               JOSEPH CROWLEY, New York
LYNN JENKINS, Kansas                 ALLYSON Y. SCHWARTZ, Pennsylvania
ERIK PAULSEN, Minnesota              DANNY K. DAVIS, Illinois
KENNY MARCHANT, Texas                LINDA T. SANCHEZ, California
DIANE BLACK, Tennessee
TOM REED, New York
TODD C. YOUNG, Indiana
MIKE KELLY, Pennsylvania
TIM GRIFFIN, Arkansas
JAMES B. RENACCI, Ohio

        Jennifer M. Safavian, Staff Director and General Counsel

                  Janice Mays, Minority Chief Counsel



















                            C O N T E N T S

                               __________

                                                                   Page

Advisory of April 3, 2014 announcing the hearing.................     2

                                WITNESS

Ambassador Michael Froman, U.S. Trade Representative, Office of 
  the United States Trade Representative, Testimony..............    11

                       SUBMISSIONS FOR THE RECORD

American Chemistry Council.......................................    65
Citizen Trade Policy Commission of Maine.........................    67
Doctors Without Borders..........................................    82
Outdoor Industry Association.....................................    91
Rubber and Plastic Footwear Manufacturers Association............    94
The American Council of Life Insurers............................    96
The American Farm Bureau Federation..............................    98
The Express Association of America...............................   101
U.S. Chamber of Commerce.........................................   108

                   MATERIAL SUBMITTED FOR THE RECORD

Questions For The Record:
Representative Dave Reichert.....................................   120
 
                 PRESIDENT OBAMA'S TRADE POLICY AGENDA
                     WITH U.S. TRADE REPRESENTATIVE
                             MICHAEL FROMAN

                              ----------                              


                        THURSDAY, APRIL 3, 2014

             U.S. House of Representatives,
                       Committee on Ways and Means,
                                            Washington, DC.

    The Committee met, pursuant to notice, at 9:36 a.m. in room 
1100, Longworth House Office Building, the Honorable Dave Camp 
(Chairman of the Committee) presiding.
    [The advisory of the hearing follows:]

HEARING ADVISORY

   Chairman Camp Announces Hearing on President Obama's Trade Policy 
          Agenda with U.S. Trade Representative Michael Froman

1100 Longworth House Office Building at 9:30 AM
Washington, March 27

    House Ways and Means Committee Chairman Dave Camp (R-MI) today 
announced that the Committee on Ways and Means will hold a hearing on 
President Obama's trade policy agenda with U.S. Trade Representative 
Michael Froman. The hearing will take place on Thursday, April 3, 2014, 
in 1100 Longworth House Office Building, beginning at 9:30 A.M.
      
    In view of the limited time available to hear the witness, oral 
testimony at this hearing will be from the invited witness only. 
However, any individual or organization not scheduled for an oral 
appearance may submit a written statement for consideration by the 
Committee and for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    International trade is essential to advancing U.S. economic growth 
and job creation. While the United States is the largest economy and 
trading nation in the world, 95 percent of the world's consumers are 
abroad. Accordingly, the future success of American workers, 
businesses, farmers, and ranchers is integrally tied with continuing 
America's strong commitment to finding new markets, expanding existing 
ones, and effectively dealing with market access barriers for U.S. 
goods, services, and investment. To further the trade agenda and to set 
forth procedures to enhance Congressional authorities in shaping and 
implementing trade agreements, Ways and Means Committee Chairman Dave 
Camp and Senate Finance Committee leaders introduced in January the 
Bipartisan Congressional Trade Priorities Act of 2014 (H.R. 3830). This 
bipartisan, bicameral legislation establishes new and updated 
Congressional trade negotiating objectives that direct the 
administration, significantly enhance requirements for consultation and 
information-sharing with Congress before, during, and after trade 
negotiations, and provide rules for Congressional consideration of 
trade agreements and their implementing bills, ultimately ensuring that 
Congress has the final say in approving any trade agreement. The 
legislation preserves the constitutional role and fulfills the 
legislative responsibility of Congress with respect to trade 
agreements. At the same time, the process ensures certain and 
expeditious action on the results of the negotiations and on the 
implementing bill, without amendment.
      
    In addition to TPA, this hearing will provide an opportunity to 
explore with Ambassador Froman how the President's trade agenda will 
create new and expanded opportunities for U.S. companies, workers, 
farmers, and ranchers, and how TPA is crucial to this strategy. Those 
opportunities include ongoing negotiations such as the Trans-Pacific 
Partnership (TPP), the Transatlantic Trade and Investment Partnership 
(TTIP), and the Trade in Services Agreement (TiSA) negotiations, as 
well as post-Doha negotiations at the World Trade Organization, such as 
expansion of the Information Technology Agreement (ITA) and a WTO 
Agreement on environmental goods. In addition, the hearing will examine 
important enforcement priorities, including trade-restrictive practices 
and non-tariff barriers from major emerging economies that prevent U.S. 
companies from competing on a level playing field, as well as various 
bilateral and multilateral trade issues and concerns. Finally, 
Ambassador Froman's testimony will provide an opportunity to discuss 
Bilateral Investment Treaty (BIT) negotiations with China, India, and 
others, as well as new BIT and investment policy opportunities; 
discussions in other bilateral and multilateral forums; and the trade 
and investment relationship with new and emerging trading partners.
      
    In announcing this hearing, Chairman Camp said, ``Seeking new 
markets for U.S. goods, services, and investment, while ensuring 
enforcement of our existing agreements is key to driving strong 
economic growth and job creation here in the United States. U.S. trade 
policy is at a crossroads. We have the opportunity to complete new 
trade agreements, including the Trans-Pacific Partnership, negotiations 
with the European Union, as well as the Trade in Services Agreement 
negotiations and other important trade initiatives. However, trade 
promotion authority is essential to concluding all of these efforts, 
and our bipartisan, bicameral bill empowers Congress and provides 
important direction from Congress to get these agreements done right. I 
call on the President to actively engage to secure broad bipartisan 
support for this bill. We must also continue to develop new trade and 
investment opportunities and enforce our trading rights with important 
trading partners, including China, India, and Latin America. I look 
forward to hearing Ambassador Froman lay out the administration's plan 
to advance U.S. economic opportunities around the world.''
      

FOCUS OF THE HEARING:

      
    The hearing will provide an opportunity to explore with Ambassador 
Froman current and future trade issues such as: (1) passing the 
Bipartisan Congressional Trade Priorities Act of 2014; (2) seeking to 
conclude a successful Trans-Pacific Partnership agreement this year; 
(3) negotiating with the European Union for a comprehensive and 
ambitious Transatlantic Trade and Investment Partnership; (4) 
negotiating a Trade in Services Agreement that increases access for all 
sectors of our economy; (5) improving our important trade relationship 
with major emerging economies like China, India, and Brazil, and 
addressing their trade barriers; (6) ensuring appropriate trade 
enforcement efforts; (7) advancing WTO negotiations, including ``post-
Doha'' issues such as Information Technology Agreement expansion and an 
agreement for trade in environmental goods; (8) negotiating Bilateral 
Investment Treaties (BITs) with China, India, and others, and exploring 
new BITs and investment opportunities; (9) establishing long-term, 
closer ties with important trading partners; and (10) renewing the U.S. 
Generalized System of Preferences and other trade preference programs.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. ATTACH your submission as a Word 
document, in compliance with the formatting requirements listed below, 
by the close of business on April 17, 2014. Finally, please note that 
due to the change in House mail policy, the U.S. Capitol Police will 
refuse sealed-package deliveries to all House Office Buildings. For 
questions, or if you encounter technical problems, please call (202) 
225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. A supplemental 
sheet must accompany each submission listing the name, company, 
address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman CAMP. Good morning. First, I just want to make a 
quick comment about the temperature of the room. There is a 
mechanical difficulty on the seventh floor of this building. I 
have spoken directly to the superintendent's office. They are 
trying to repair it as we meet. But it is going to be a little 
chilly all morning in here.
    Welcome, Ambassador Froman. Thank you for coming back to 
the Committee. Obviously, we are very aware and appreciative of 
how hard you and your dedicated staff have worked to advance 
U.S. trade policy.
    A trade policy that opens markets for American exports, 
enforces international rules, and ensures a level playing field 
for American workers is proven to promote broad economic growth 
and job creation here in the United States. The success of 
American workers, businesses, farmers, and ranchers is directly 
linked to finding new markets, expanding existing ones, 
effectively dealing with market access barriers, and strictly 
enforcing our existing agreements.
    U.S. trade policy is at an important crossroads. Congress 
passed the trade agreements with South Korea, Colombia, and 
Panama on strong bipartisan votes last Congress, and in the 
process the United States recaptured its leadership role in the 
global trade negotiations. This past December, U.S. leadership 
was critical to ensuring that the WTO Ministerial in Bali 
produced the Trade Facilitation Agreement, the first multi-
lateral agreement since the WTO was created nearly 20 years 
ago.
    We are in the midst of several trade negotiations. The 
Trans-Pacific Partnership is nearing conclusion, and I hope it 
will be completed as soon as possible this year. Progress in 
the EU negotiation is encouraging. The Trade in Services 
Agreement negotiations are well underway in Geneva, with 50 
countries participating, as is the newly kicked-off WTO 
negotiation on environmental goods. We are trying to conclude 
an expansion of the Information Technology Agreement, assuming 
China acts more constructively. We have an active bilateral 
investment treaty negotiating agenda with China, India, and 
others.
    All these initiatives hold the promise of significant 
economic gains, supporting more good jobs that pay well here in 
the United States by dismantling barriers to U.S. exports and 
creating robust enforcement mechanism to prevent future 
barriers. These agreements will tackle both tariff and non-
tariff barriers, including 21st century issues like state-owned 
enterprises, cross-border data flows, forced localization, 
regulatory coherence, and trade facilitation. They will create 
more opportunities for U.S. companies by integrating them more 
deeply into global supply chains.
    To conclude and implement these negotiations, we need to 
pass trade promotion authority legislation. That is why, this 
January, I introduced H.R. 3830, the Bipartisan Congressional 
Trade Priorities Act, along with then-Finance Committee 
Chairman Baucus and Ranking Member Hatch, as well as Rules 
Committee Chairman Sessions and Trade Subcommittee Chairman 
Nunes.
    TPA is how Congress sets its priorities for trade 
agreements, and instructs the Administration on how to achieve 
them. Every president since FDR has had some form of this 
authority. The legislation establishes specific rules for how 
the Administration must consult with us, and ensures Congress 
the final say in approving any trade agreement. This TPA bill 
is the strongest in history, and includes new provisions to 
keep Members informed and provide a formal process to guarantee 
that Members' views will be taken into account. If the 
Administration does not meet our objectives, or keep us 
informed, the bill provides that we can strip TPA.
    The need for this bill is resonating powerfully among 
Members and key stakeholders they know that TPA helps our 
negotiators get the very best deal and realize the economic 
benefits of our trade agreements. But while the President 
called for TPA in his State of the Union speech, he has been 
silent since. Ambassador, I know you have been working hard. 
But if we are going to get TPA done, we need full engagement by 
the President himself, and his entire administration. This is 
an all-hands-on-deck moment for the Administration to engage 
with Congress and the American people on this bill. I look 
forward to hearing from you, Ambassador, about the 
Administration's plan to bring TPA across the finish line.
    In addition to negotiations, we must also address the 
challenges and opportunities presented by trading partners 
around the world, including the major emerging economies--
China, India, and Brazil. They provide enormous potential, but 
also significant and growing barriers. We must engage these 
countries constructively, but firmly, and address trade and 
investment barriers such as through an expanded Bilateral 
Investment Treaty agenda.
    I will conclude by pointing to a recent Pew study on 
America's place in the world, which found that 66 percent of 
Americans see benefits from greater involvement in the global 
economy, because it opens up new markets and opportunities for 
growth. With 95 percent of the world's consumers outside our 
borders, Americans are keenly aware of the need for strong U.S. 
engagement abroad. Let's seize this opportunity on the trade 
front.
    Chairman CAMP. I will now yield to Ranking Member Levin to 
make an opening statement.
    Mr. LEVIN. Thank you, Mr. Chairman. I hope you won't find 
it out of order for me to say a few words since your public 
announcement.
    I think we all felt the same way, Mr. Chairman. Your 
dedication to public service has been unswerving for your 
district, for the state, and, I think, for this country. You 
have brought dignified and warm touches to your leadership, and 
we are all grateful for that. And----
    Chairman CAMP. We will need that warmth today.
    Mr. LEVIN. Well, I think it will overcome the lack of heat. 
It won't be too hot, Mr. Ambassador.
    Ambassador FROMAN. Thank you.
    Mr. LEVIN. But we feel that, Mr. Chairman. And you have led 
this Committee in a way that I think is very much in keeping 
with a tradition in this Committee that goes back long, long 
before any of us have served. And so, we listen to your 
announcement with, I think, very mixed emotions, and we look 
forward to working with you in the days ahead.
    Chairman CAMP. Well, thank you very much for those very 
gracious comments. I Appreciate it very much.
    Mr. LEWIS. Mr. Chairman.
    Chairman CAMP. Yes, Mr. Lewis.
    Mr. LEWIS. I would like to be identified with the comments.
    Chairman CAMP. Well, thank you.
    Mr. LEWIS. The gentleman from Michigan, you are my neighbor 
upstairs in the Cannon Building, and you are my friend. You are 
not just the chairman. And I want to thank you for your years 
of service, for your openness, and for all that you have done 
to make Michigan better and make our country better. And your 
service will never, ever be forgotten.
    Chairman CAMP. Well, thank you very much.
    Mr. RANGEL. Mr. Chairman.
    Chairman CAMP. Yes.
    Mr. RANGEL. I think it is premature for me to say too many 
kind things about you before this session is over.
    [Laughter.]
    Mr. RANGEL. But I can tell you that you have been a breath 
of fresh air in an atmosphere that has been a tremendous 
disappointment to so many of the Members that served here. But 
you have managed, notwithstanding the differences in our 
parties, always to be a professional, always to be a gentleman. 
And, in my case, always to be a friend. And it is deeply 
appreciated.
    Chairman CAMP. Well, thank you. I think we better get 
moving before I start performing like John Boehner.
    [Laughter.]
    Chairman CAMP. So, Mr. Levin is recognized.
    Mr. LEVIN. Okay. We have talked privately, and I think a 
lot of us wanted to say something publicly.
    Chairman CAMP. I really appreciate it. Thank you very much.
    Mr. LEVIN. The notice advising this hearing focused on 
trade promotion authority, specifically the TPA legislation 
introduced in January by you, Mr. Chairman, and former Senator 
Baucus. I believe that legislation is deficient. But let me 
suggest that the focus today should not be on TPA, but on the 
critical, ongoing negotiations with TPP countries.
    The TPP represents both opportunities and major challenges. 
The opportunities stem from the dramatic economic growth in 
Asian-Pacific nations. We are at a critical stage in those 
negotiations. But the outcome of a long list of fundamental 
issues? That outcome remains uncertain. Some of these 
challenges reflect that this is the most complicated multi-
party negotiation in 20 years, in terms of the issues involved, 
and the number of countries that individually present 
negotiating challenges.
    For example, the 12 trading partners, including Japan, the 
third largest economy in the world with an export-dependent and 
notoriously closed market. The Korea agreement was hard, and 
remains hard, with a number of disturbing implementation issues 
outstanding and, in some cases, growing. Japan will be harder. 
Important markets in Japan are even more closed, and its 
economy is bigger. For the United States, TPP is unique, in 
that there is involved, one-to-one negotiations with one of the 
largest industrial nations and competitors.
    The negotiations also include Vietnam, a Communist country 
with a longstanding command economy, and a very poor record on 
labor rights and the rule of law. The Colombia agreement was 
hard, and remains hard, with a deeply troubling record of 
compliance with the labor action plan. Vietnam will be harder. 
The fact that the Communist government believes it, and not 
independent labor unions chosen by the workers themselves, 
represents workers in the workplace creates a new threshold 
issue. And Brunei, Malaysia, and Mexico also present challenges 
with respect to the implementation of the labor commitments.
    The list of major outstanding issues in TPP is too long to 
recite or describe here, but includes currency manipulation, 
environmental protections, and labor standards, access to 
medicines, food safety rules, state-owned enterprises, tobacco 
controls, cross-border data flows, and private protection, and 
investment issues. I hope all of us today can discuss these 
issues.
    The TPA introduced by you, Mr. Chairman, and Senator 
Baucus, would not effectively enough guide our negotiations to 
get these outstanding issues right. Indeed, in a number of key 
respects, the TPA doesn't provide a lot of guidance. For 
example, on currency manipulation it provides no real guidance, 
instead leaving it to the Administration determine what is 
appropriate. There is also no guidance as to how to ensure that 
Vietnam implements its commitments. On the pricing of 
pharmaceuticals, the bill calls for the elimination of price 
controls and reference pricing, but neither the U.S. nor any 
other TPP country is supporting such a proposal. And the bill 
provides little guidance in determining what an acceptable 
outcome is with Japan on automotive or agricultural market 
access.
    Nor would that TPA bill provide much guidance as to how to 
improve consultations and transparency in the TPP negotiations. 
It largely does two things: it codifies the current procedures, 
and requires the Administration, not Congress, to develop new 
guidelines for consultations and transparency in the future. 
Indeed, the bill would require the Administration to develop 
new consultation guidelines 4 months after China--after 
Congress might pass a TPA. That would not help TPP.
    I believe that Congress needs to be fully involved right 
now. Congress needs to be a full partner in these negotiations. 
My message to our trading partners is clear: the Congress will 
support an agreement that expands trade if and when it does so 
in a way that benefits U.S. workers and businesses, effectively 
addresses critical new issues, strengthens our economy, and 
protects our values. Getting the substance right is what is key 
now.
    I, therefore, hope we focus in this hearing on the wide-
ranging substantive issues embedded in TPP. We also need to 
discuss other important negotiations, including the Trans-
Atlantic Agreement and the Services Agreement, and we need to 
act on other legislation, including TAA, the miscellaneous 
tariff bill, preference programs, and customs enforcement and 
facilitation.
    Mr. Ambassador, we deeply appreciate your hard work. I 
understand you have worked so hard that your wife had to come 
here today to listen to what you are going to say, and so we 
welcome your wife, Nancy. You have enjoyed some important 
enforcement successes lately. We welcome your appearance today.
    Chairman CAMP. Well, thank you very much, Mr. Levin.
    Again, welcome back to the Ways and Means Committee, 
Ambassador Froman. We have your written statement; it is made 
part of the formal record. You have 5 minutes to summarize your 
testimony.

       STATEMENT OF MICHAEL FROMAN, UNITED STATES TRADE 
       REPRESENTATIVE, OFFICE OF THE UNITED STATES TRADE 
                         REPRESENTATIVE

    Ambassador FROMAN. Well, thank you very much, Chairman 
Camp, Ranking Member Levin, members of the Ways and Means 
Committee. Thank you for having me back here, and for this 
opportunity to testify on the 2014 Trade Policy Agenda. And let 
me also take a moment to associate myself with Mr. Levin's 
comments about the Chairman, and underscore how much we have 
valued the working relationship we have had, and how we look 
forward to continuing that working relationship over the course 
of this year.
    The core of the Obama Administration's economic strategy is 
to create jobs, promote growth, and strengthen middle class in 
America. Our trade and investment policy contributes 
significantly to that strategy by opening markets for made-in-
America products, leveling the playing field, by raising 
standards, so that our workers can compete fairly, and 
enforcing our trade laws and our trade rights.
    Done right, trade policy creates opportunities for American 
workers, farmers, and ranchers, manufacturers and service 
providers, innovators, creators, investors, and businesses, 
businesses of all sizes, and, very importantly, the small and 
medium-sized businesses. Done right, trade policy promotes not 
only our interests, but also our values. And it gives us the 
tools to make sure others play by the same rules that we do.
    The Obama Administration has a strong record of success in 
promoting U.S. exports and creating jobs here at home. Over the 
past 4 years, U.S. exports have increased to a record high of 
$2.3 trillion. In fact, a third of our total economic growth is 
attributed to this increase in U.S. exports. And exports mean 
jobs. Each $1 billion in increased exports supports 5,400 to 
5,900 U.S. jobs; 11.3 million Americans now owe their jobs to 
exports. That is an increase of 1.6 million in the last 5 
years. And those are good jobs, jobs that pay 13 to 18 percent 
more, on average, than non-export-related jobs. Indeed, 
increasing exports and the well-paying jobs that they support, 
is a critical tool for dealing with inequality in this country.
    In 2014 we will work to conclude negotiations on the TPP 
Agreement, a key pillar of our rebalancing strategy to Asia. 
TPP is currently being negotiated among 12 countries, some of 
the largest and fast-growing economies in the world, 
representing 40 percent of the global GDP, and a third of 
global trade. We are working to ensure that the final agreement 
will provide comprehensive market opening for goods and 
services, strong and enforceable labor and environmental 
standards, commitments on intellectual property that promote 
innovation and creativity, as well as access to information and 
life-saving medicines, groundbreaking new rules designed to 
ensure fair competition between state-owned enterprises and 
private companies. And, for the first time, obligations that 
will address the issues of the digital economy.
    We are also working to complete parallel negotiations with 
Japan to address longstanding issues related to autos, 
insurance, and other non-tariff barriers. And, building on last 
year's successful launch, we expect to make significant profits 
this year towards a TTIP agreement with the European Union. 
This will strengthen the world's largest trade and investment 
relationship, and further underscore the strategic importance 
of the trans-Atlantic relationship.
    Agriculture is vital to the American economy. In 2013, U.S. 
farmers, ranchers, and growers exported a record $148 billion 
of food and agricultural goods to consumers around the world. 
And this year, this administration aims to help them build on 
that record performance.
    U.S. manufacturing plays a key role in our economy today 
and in the future. As American manufacturers increase our 
capacity to produce more advanced and value-added goods, 
consumers around the world continue to place a high value on 
products made in America. In 2012, the U.S. exported nearly 
$1.4 trillion in manufactured goods. And in 2014, we aim to 
build on the strength of our manufacturing sector.
    The U.S. is an innovative economy, and the Obama 
Administration is committed to protecting intellectual 
property, which is vital to promoting and encouraging 
innovation and creativity. Millions of Americans' jobs rely on 
intellectual property, and we will continue to use our trade 
agenda in 2014 to defend the IP rights of our creators and 
innovators, while supporting the freedom of the Internet, 
encouraging the free flow of information across the digital 
world, and ensuring access to affordable medicines, 
particularly by poor and less-developed countries.
    At the WTO we will capitalize on the success of the 
ministerial meeting in Bali last year. In March we notified 
Congress of our intent to enter into negotiations on an 
environmental goods agreement with the world's largest traders 
in environmental goods, representing 90 percent of this $1.4 
trillion market. And we will also move this year toward 
conclusion of negotiations on two major sectoral agreements: 
the Trade in Services Agreement and the expansion of the WTO 
Information Technology Agreement.
    The Obama Administration has placed unprecedented emphasis 
on trade enforcement. This Administration has filed 17 WTO 
complaints, and doubled the rate of cases filed against China. 
In fact, just last week, the U.S. scored an important victory 
for American workers and manufacturers, and for upholding WTO 
rules on fair access to raw materials that are essential for 
maintaining U.S. manufacturing competitiveness. And through our 
ongoing enforcement agenda, we are leveling the playing field 
for key agricultural producers, aircraft workers, and 
manufacturers of wind turbines and high-tech batteries across 
the country.
    As we work through this agenda, we will continue to consult 
closely with Congress and seek input from a wide range of 
advisors, stakeholders, and the public. We have held over 1,200 
meetings with Congress about TPP alone, and that doesn't 
include the meetings we have had on TTIP, TPA, AGOA, and other 
trade initiatives. Our congressional partners preview our 
proposals and give us critical feedback every step of the way, 
and we ensure that any Member of Congress can review the 
negotiating text, and has the opportunity to receive detailed 
briefings by our negotiators.
    We are increasing the diversity of trade policy input we 
receive through the creation of the Public Interest Trade 
Advisory Committee, to include stakeholders focused on 
consumer, public health, and other public interest issues. And, 
consistent with the statute, the Administration is soliciting 
qualified candidates to serve on the ITACs, our Industry 
Advisory Committees, to ensure that they are representative of 
industry, agriculture services, and labor interests.
    Finally, let me say a word about trade promotion authority. 
The last TPA legislation was passed over a decade ago, and much 
has changed since then. There has been the May 10, 2007 
bipartisan agreement on labor, environment, innovation, and 
access to medicines, driven by key members of this Committee. 
There has been the emergence of the digital economy, and the 
increasing role of state-owned enterprises in the global 
economy. These issues should be reflected in the statutory 
negotiating objectives of a new TPA bill.
    We have heard from many that TPA needs to be updated, and 
we agree. The Administration welcomed the introduction of the 
bipartisan TPA legislation in January, and look forward to 
working with this Committee and Congress, as a whole, to secure 
trade promotion authority that has as broad, bipartisan support 
as possible. We also look forward to renewing trade adjustment 
assistance, which expires at the end of this year.
    The ambitious trade agenda I have laid out today creates 
opportunities for new, well-paying jobs, higher growth, and a 
stronger middle class. It incentivizes individuals and 
businesses to bring back, expand, and start new production 
here, in the United States. And, at its core, this trade agenda 
emphasizes strong, enforceable rules that promote U.S. values 
and U.S. interests. And, of course, we could only accomplish 
these goals and priorities through strong, bipartisan 
cooperation between Congress and the Administration.
    Thank you again for the opportunity to testify. I am happy 
to take your questions.
    [The prepared statement of Ambassador Froman follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    Chairman CAMP. Well, thank you very much, Ambassador 
Froman. Earlier this year, I introduced a bipartisan, bicameral 
trade promotion authority legislation. It sets out specific 
negotiating objectives that Congress wants to achieve in our 
trade agreements, and there is a robust framework for 
congressional consultations, and actually ensures that Congress 
has the final say on consideration and implementation of any 
trade agreements. I believe this is absolutely essential 
legislation to negotiate and conclude the best agreements 
possible--it strengthens USTR's hand at the negotiating table.
    Mr. Ambassador, are you committed to meeting the 
negotiating objectives set out in TPA, and will you comply with 
the extensive consultation with Congress, and information-
sharing provisions set out in TPA?
    Ambassador FROMAN. Well, Mr. Chairman, we very much look 
forward to working with this Committee and with Congress, as a 
whole, to get a trade promotion authority bill that has got 
broad, bipartisan support. And, in that context, we would very 
much look forward to meeting the negotiating objectives and the 
consultation procedures included in such a bill.
    As you said, TPA is the way that Congress gives us our 
negotiating objectives, our marching orders for negotiations, 
tells us how it wants us to work with Congress before and 
during the negotiations, and ultimately, what procedures 
Congress will use to approve or disapprove any trade agreement 
we bring back. And we very much think that having that 
authority over time helps open markets and increase exports, 
which helps drive job creation here, in the United States.
    Chairman CAMP. I appreciate that. And you and I have 
previously discussed this. It is very important for Congress, 
and particularly this Committee, to know the details of 
negotiations so that we can consult in a meaningful way. And we 
can provide our guidance and views to the Administration, as we 
move forward, because consultation without the appropriate 
information really cannot be consultation.
    Our level of access to information with prior 
administrations, Republican and Democrat, has always been 
complete and thorough. And, Ambassador, do you commit to 
working with this Committee to provide us the most updated 
information, including access to all the text, in a timely and 
complete way?
    Ambassador FROMAN. I do.
    Chairman CAMP. Well, thank you very, very much for that.
    You know, I very much appreciate your tireless efforts on 
the Hill, and in meeting with both Republicans and Democrats to 
talk about trade and TPA. We do need strong support from the 
White House and the President. As I said in my opening 
statement, we need to be, really, all-hands-on-deck. What is 
the Administration doing to build congressional support?
    Ambassador FROMAN. Well, we have a whole-of-government 
approach to this. As you know, the President talked about this 
in the State of the Union. The Vice President has talked about 
it. They have met with members of the Democratic party, as well 
as the Republican leadership on this issue. We have had the 
Chief of Staff of the President up here talking about it, as 
well as the Secretary of Treasury, Secretary of Commerce, 
Secretary of Agriculture, Secretary of State. Secretary of 
Defense has been writing op eds on the importance of our 
rebalancing towards Asia, including TPP as a critical component 
of that. So we work with all of our interagency partners at the 
Cabinet and the White House level on down, to build support up 
here for our overall trade agenda.
    As you noted, we are all up here a great deal, as we have 
had, as I mentioned, more than 1,200 consultations on TPP 
alone. Over 450 of those have been with this Committee and its 
staff. And so, we are very much involved in making sure that 
members of Congress know what it is that we are working on, 
have input, give us feedback, and that we are answering their 
questions and building support, getting them comfortable with 
our trade agenda, so that we could move ahead.
    Chairman CAMP. Well, thank you. And, with regard to TPP, I 
am committed to working with you to complete TPP. I think a 
robust agreement would have significant benefits for the U.S. 
economy, support job creation, and better-paying jobs. I am 
concerned that Japan is significantly holding up progress on 
TPP. And while Japan has been helpful in many of the rules 
areas, Japan's position to exclude or limit the inclusion of a 
significant number of important agricultural products from the 
scope of TPP has become a serious impediment. Japan stands 
contrary to the commitment, frankly, that Japan made when it 
joined TPP to put all issues on the table. It is also giving 
countries like Canada an excuse not to meaningfully open up 
their markets. So adequately addressing our bilateral auto 
issues with Japan is critical for my support. If a country is 
not ready to make the commitments to join TPP as an ambitious, 
high-standards agreement, then, in my view, we should complete 
TPP without that country, and allow it to join later, if and 
when it is ready to make the necessary commitments.
    But, first, what is your strategy for ensuring that Japan 
adequately opens up its agricultural and auto markets, and do 
you agree that a country should not be in TPP if it can't make 
sufficiently ambitious commitments?
    Ambassador FROMAN. Well, Mr. Chairman, at this juncture in 
the TPP negotiation, all eyes are on Japan. Not just the U.S., 
but all the TPP countries are focused and are looking at Japan 
to make sure that they provide comprehensive access to their 
market, both the agricultural side and other parts of its 
market. And we are reminding Japan what it and all TPP members 
agreed to when they joined TPP, that this is intended to be a 
high-standard, ambitious, comprehensive agreement. We can't 
have one country feeling entitled to take off the table and 
exclude vast areas of market access, while the other countries 
are all putting on the table more ambitious offers. Japan is 
not the only country that has sensitivities; we all have 
sensitivities. And we are working together to create an 
ambitious agreement in that context.
    We are also reminding Japan of the benefits of a successful 
TPP agreement, and what that can bring to its economy, 
particularly at this critical time in its economic recovery, 
how its future prosperity could be tied to the structural 
reforms that TPP can help incentivize, and how completing TPP 
can help enhance its leadership role in the Asia-Pacific 
region.
    We are well aware of the political sensitivities that Japan 
has on a number of issues. This isn't an issue of us needing to 
be more flexible. We are being plenty creative in trying to 
come up with ways to ensure comprehensive market access to 
Japan that addresses political sensitivities, as well. It is 
time for Japan to step up to the plate. And, as I said, that is 
not just our view, that is the view of all the TPP countries.
    We are pressing them on the automotive front, as you 
suggested, as well. We have got agreements before they came in 
to TPP on tariffs and on access to their market, and sort of 
expedited approval of our imports into their market. But we 
have a series of other issues dealing with their financial 
incentives, their standards, their distribution, the 
transparency of the regulatory process, that we are pursuing at 
a parallel negotiation. We are making some progress in that, 
but the gaps still remain, both on the agricultural side and on 
the auto side. And we are very much focused on trying to bridge 
those gaps.
    Ultimately, it is Japan's decision, as it looks to its own 
future, as to whether it is prepared to take the bold steps 
necessary to be part of this groundbreaking agreement. And, let 
me assure you, we are remaining very focused on assuring that 
they open their agricultural markets and their automotive 
markets in meaningful and substantive ways, consistent with the 
high ambition of TPP.
    Chairman CAMP. Well, thank you. And, lastly, I have raised 
with you before the pressing need to include currency 
disciplines in TPP. And are you considering including 
provisions on currency in the agreement? What would those 
provisions look like, and what factors should be taken into 
account in determining the U.S. position?
    Ambassador FROMAN. Well, currency is a serious issue, and 
we certainly have heard from Members up here. And it is a 
serious issue for the Administration, itself. The Treasury 
Department, of course, has the lead on this issue for the 
Administration. But from the President to the Secretary of 
Treasury, to the rest of the Administration, it has been a high 
priority from day one of this administration to press our 
trading partners to move towards more market-oriented exchange 
rates. For example, with China, whether it is through the IMF 
or the G20, or where appropriate, with other countries through 
the G7 we have been pressing countries towards market 
liberalization and market-determined exchange rates.
    With China we have had--we have made some progress. In June 
2010 they began to liberalize their exchange rate again, and it 
has moved 18 percent in real terms since then. It is not far 
enough, it is not fast enough. We need to continue to press 
them at every occasion, as we do. And we are continuing to 
consult. The Secretary of the Treasury, myself, we are 
consulting with Members of Congress, with stakeholders, to 
determine how best to address the underlying issue.
    Chairman CAMP. All right, thank you. Mr. Levin.
    Mr. LEVIN. Thank you. Mr. Chairman, you raised Japan. And I 
think it illustrates the work yet to be done. I think it 
illustrates the need for continuing and major congressional 
involvement. It is often said that Congress sets the terms of 
negotiations, and that has been done in TPA. There is no TPA. 
TPP is in the middle of its negotiations.
    And I think that means that there has to be a way found to 
be sure that this Congress, this Committee, and broader, are 
deeply involved in the negotiations, in the discussions. I 
think that is the only way an agreement can be passed here. And 
I think our involvement will send a signal to our trading 
competitors and those we are negotiating with that, as you 
proceed, there will be support from this Congress. It is only 
that intimate relationship between the Congress and the 
Administration that will really work here. And I think Japan is 
a good example, because--and we have talked about this--much of 
the work remains to be done. What was agreed to was kind of 
conceptual.
    Japan--this is the first one-on-one negotiation the U.S. 
has had with a country the size of Japan. And it has the most 
closed market in the automotive sector of any country, surely, 
of its size. And the same is true of agriculture.
    So, let me just ask you--and you raised, Mr. Chairman, 
currency. That is another example of why there needs to be the 
most active involvement of Congress in these discussions. So 
far, currency hasn't really been put on the table. And there is 
a letter from the clear majority of Senators insisting that 
this be addressed, as well as a letter from a majority of 
Members of the House.
    So, let me cite another example: Vietnam. A command 
economy. We have had difficulty enforcing our trade agreements. 
Just say a few words about how you think it is possible to work 
out an agreement with a very closed--or what has been a closed 
economy, in terms of its basic markets, as well as its labor 
markets, and be sure, before we were asked to act, that there 
would be very effective change within Vietnam to make their 
commitments real. If you would, comment on that.
    Ambassador FROMAN. Well, thank you, Congressman Levin. You 
know, with regard to Vietnam--and this is true of the other 
countries, too, but you have pointed out correctly that Vietnam 
poses particular challenges within TPP, given the level of its 
development, the structure of its economy. We have made clear 
throughout the negotiations, and before Vietnam joined TPP, the 
kinds of standards that we would be expecting through TPP, and 
the kind of changes and reforms that would be necessary to 
bring them into conformity with those standards.
    So, for example, on state-owned enterprises, which play a 
significant role in the Vietnamese economy, we have been 
working with them on a path towards them reforming their SOEs, 
consistent with the obligations that we are negotiating in TPP. 
And the same is true on labor issues and on environmental 
issues. They see TPP as a potential mechanism for helping to 
support what they have determined is their own domestic reform 
agenda.
    Mr. LEVIN. And changes would be in place before the final 
negotiation, or at least before we were asked to act?
    Ambassador FROMAN. Well, I think in each of these cases we 
have to work through what the staging of their changes are, and 
how it relates to when we submit it to Congress for approval, 
when it goes into force, et cetera. Vietnam is not going to 
transform itself overnight, but we need to make sure we have 
got mechanisms for assuring that they meet their obligations, 
consistent with the standards of the agreement.
    Mr. LEVIN. Thank you.
    Chairman CAMP. All right. Mr. Johnson.
    Mr. JOHNSON. Thank you, Mr. Chairman. Appreciate you being 
here.
    You know, the expansion of information technology to 
include additional products would have significant benefit for 
U.S. manufacturers and consumers. By one estimate, updating the 
ITA would boost global GDP by $190 billion, and increase U.S. 
exports by 3 billion, creating 60,000 American jobs. ITA 
expansion has strong bipartisan support in Congress, and I hope 
you will continue to press for a robust and ambitious agreement 
as soon as possible.
    I am a little frustrated by China's refusal to engage 
productively in these negotiations, and I understand a top 
priority this year for U.S. high-tech companies, including the 
semi-conductor industry, is a resumption and successful 
conclusion of an ITA expansion negotiation. What opportunity do 
you see to move that agreement forward this year?
    Ambassador FROMAN. Well, thank you, Congressman Johnson. 
And, first of all, we agree completely with your assessment of 
the importance of the Information Technology Agreement, and the 
implications for the U.S. economy, and share the frustration 
that you expressed about the position of China in the 
negotiations. We have got countries around the table 
representing about 90 percent of the global market for 
information technology products.
    And the other countries around the table have put on the 
table pretty ambitious offers, in terms of opening their 
markets. China's offer did not meet that standard. And, as a 
result--it wasn't just the U.S., it was the U.S., the EU, 
Japan, and the rest of the countries around the table decided 
to suspend negotiations until China would return to the table 
with a more appropriate offer.
    We have, together, made proposals to China to try and get 
them back to the table with what we think is a reasonable path 
forward. They have yet to respond positively to that. And we 
continue to raise this at every one of our high-level meetings, 
again, from the most senior leadership to the Joint Committee 
on Commerce and Trade meeting that we had in December that 
Secretary Pritzker and I co-chaired in December with our 
counterpart in China, and we will continue to press that and 
try and get them back to the table, so that we can complete 
that agreement.
    Mr. JOHNSON. You anticipate China talking to us? Do you?
    Ambassador FROMAN. Well, we certainly hope so----
    Mr. JOHNSON. You think China will talk to us?
    Ambassador FROMAN. We certainly hope so. We have a lot on 
our agenda with China, but we have made clear that their 
constructive engagement on ITA is one of our highest 
priorities, and is a litmus test for how they interact on other 
negotiations.
    Mr. JOHNSON. Thank you, sir. Thank you, Mr. Chairman.
    Chairman CAMP. Thank you. Mr. Rangel.
    Mr. RANGEL. Thank you, Mr. Chairman. And welcome, once 
again, Ambassador. And let me join with those people that 
congratulate you for your tenacity, and the ability to bring 
people together. If you can bring Republicans and Democrats 
together on this bill, that would be fantastic.
    When you say ``trade'' to a lot of Americans, it means 
jobs. Throughout your testimony you talk about not only 
creating jobs through exports, but providing incentives for 
manufacturing. Many people, including those in the Congress, 
believe that trade means we are losing jobs. So, it seems to me 
that, in an agreement, an international agreement, everyone 
should walk away from the table believing that they did the 
best they could for their country.
    My question to you is, do you have any idea as to 
geographically or industry-wide or service-wide, where these 
new jobs are going to be created? And since we also have to 
deal with the re-training of workers that lose their job as a 
result of trade, could you give us some ideas of the areas that 
we expect to lose jobs as a result of this agreement?
    Ambassador FROMAN. Well, let me start by saying that, as 
you say, increasing exports supports more jobs here, in the 
U.S. But these trade agreements are also a key part of driving 
investment and manufacturing and other sectors in the U.S. I 
have been visited by several businesses, particularly from 
Europe, who have come and said, ``The U.S. is a great market. 
You have got the rule of law. You are entrepreneurial. You have 
a skilled work force.''
    Now you have abundant sources of affordable, cleaner 
energy, which are giving the United States a comparative 
advantage, particularly vis a vis Europe. When you complete 
these trade agreements, TPP and TTIP, the U.S. will have free 
trade, will have unfettered access to two-thirds of the global 
economy. That makes the U.S. the production platform of choice. 
It makes the U.S. the place where manufacturers want to put 
their next investment and produce stuff, not just for this 
market, but to send to Asia, to Latin America, to Europe.
    And so, part of our trade policy is also to make the U.S. 
an even more attractive place to locate businesses, to 
manufacture, to use as an export platform for the rest of the 
country. And we do that by virtue of opening markets, but also 
how we use rules of origin, et cetera, to really drive 
manufacturing here.
    Our market, as you know, is already quite open. Our average 
applied tariff is 1.3 percent. We don't use regulations as a 
disguise barrier to trade. We don't discriminate against 
foreigners through our regulations. But that is not true around 
the world. There are a lot of major markets around the world 
that have higher tariffs, and that use non-tariff barriers to 
keep out our products. So the purpose of these agreements is 
really to lower those barriers disproportionately, so that we 
can increase exports from here. They already have access, 
largely, to our market. The question is whether our workers and 
our firms will have access to theirs.
    I don't have specific data for you on which industries here 
or there will gain or lose, but we can certainly work on that 
with you as we conclude the agreement. I think your point, 
though, underscores that we need to make sure we are providing 
our workers with the support that they need and the skills they 
need to transition as necessary. And that is one reason why in 
the President's budget we have a comprehensive worker 
retraining program, and why we think it is important that the 
trade adjustment assistance be renewed, as well.
    Mr. RANGEL. It is my understanding that trade union leaders 
or representatives are in some way involved not in direct 
negotiation, but, say, as observers. Have they shared any of 
the things that you just said, in terms of the dramatic 
increase in exports, and, therefore, the increase in jobs, so 
that they can increase their Membership?
    Ambassador FROMAN. Well, labor is a critical group of 
stakeholders for us in these negotiations. We have the Labor 
Advisory Committee, where 23 union presidents serve on that 
advisory committee. Four of them serve on the President's 
Advisory Committee on Trade Policy Negotiations. And, as I 
mentioned in my testimony, we are now inviting applications for 
the other industry trade advisory committees. And they have had 
tremendous input from the beginning, not only on the labor 
chapter, but on other chapters: a seat on enterprise chapter, 
rules of origin, market access issues. And we are still in the 
midst of negotiating many of those issues, but we have tried 
very hard to take into serious consideration and to negotiate 
successfully on the behalf of those issues.
    Chairman CAMP. All right, thank you. Time has expired.
    Mr. RANGEL. Thank you.
    Chairman CAMP. Mr. Nunes.
    Mr. NUNES. Thank you, Mr. Chairman. Ambassador, welcome. 
Great to see you again. Could you give us a quick update on 
your negotiations with--solving or dealing with SPS issues, 
specifically dispute resolution in both the TPP and the EU 
negotiations?
    Ambassador FROMAN. Well, in the TPP negotiations, which are 
further along, we are negotiating a strong SPS chapter. And we 
anticipate making sure that that chapter is subject to dispute 
settlement, either at the WTO or in TPP, itself.
    Mr. NUNES. You feel comfortable with where we are--you 
think we are making progress? Because several Members of this 
Committee and several Members of Congress have expressed a 
strong interest in making sure that we do have dispute 
resolution.
    Ambassador FROMAN. It is not a fully resolved issue, but I 
think we are making progress, and we are doing so in a way that 
ensures that our regulatory agencies--the Food and Drug 
Administration and others--can do what they need to do, as 
necessary, in terms of risk assessments and equivalency 
determinations to implement their mandate of their obligations 
to provide for food safety, and to implement the Food Safety 
Modernization Act.
    Mr. NUNES. And I know that, because we have a great working 
relationship, if there is anything that we can do to ease this 
process here in the United States to make it easier for you to 
negotiate, we are willing to help, and we will make ourselves 
available.
    The status of the President's proposal for consolidating 
our trade agencies. There is quite a bit of concern over this, 
of, you know, moving USTR under some other agency. We have had 
this longstanding arrangement with USTR, it has worked very 
well. Can you update us on the President's proposal?
    Ambassador FROMAN. Well, I think any such reorganization 
requires reorganization authority to be granted to the 
President by Congress. And, obviously, that would require a 
great deal of consultation and coordination with Congress, in 
terms of how to proceed.
    Mr. NUNES. I know you know that would be quite 
controversial, I think, for many of us here in the Congress, 
but I appreciate your keeping us updated on it.
    Just briefly, the cotton dispute with Brazil, could you 
talk to us about where that is?
    Ambassador FROMAN. Well, with the passage of the farm bill, 
the Brazilian government, as I understand it, is assessing what 
was done in the farm bill on cotton to determine whether they 
believe that meets our obligations under the WTO case. We are 
in dialog with them now to see whether we can settle the case, 
based on the changes in the farm bill, or whether they are 
going to seek a compliance proceeding at the WTO. And those 
discussions are ongoing.
    Mr. NUNES. And, as you know, I think, those of us in 
Congress who worked on the farm bill, specifically with the 
cotton provision, we do feel like it does comply with the WTO. 
So, hopefully, our Brazilian friends will put this to bed so 
that we can move on with our relationship with the Brazilians.
    Just briefly on Ukraine, and as it relates to LNG exports 
from the United States, we are going to hold a hearing next 
week on this issue. Have you put much effort into looking at 
the long-term fundamentals of having a strong export policy as 
it relates to LNG?
    Ambassador FROMAN. Well, there is nothing specifically that 
we are currently doing in TTIP or TPP that directly bears on 
the export of natural gas. That is governed by, as you know, 
the Natural Gas Act, which determines how the Department of 
Energy should make its findings with regard to public interest 
for free-trade countries and non-free-trade countries.
    Mr. NUNES. Thank you. We will have a hearing next week, and 
we will be glad to share some of that information that we glean 
from the hearing. And I just want to thank you for your 
continued efforts to keep the Congress informed--we have had a 
great working relationship, and I hope that that continues.
    Ambassador FROMAN. Thank you.
    Mr. NUNES. I yield back, Mr. Chairman.
    Chairman CAMP. Thank you. Mr. McDermott.
    Mr. MCDERMOTT. Thank you, Mr. Chairman. I want to add my 
voice to those who will miss you.
    Chairman CAMP. Well, thank you.
    Mr. MCDERMOTT. I--Mr. Froman, it is good to see you. And, 
as you know, there is--5 minutes isn't very much time to talk 
about a lot of issues. I could talk about rebar dumping in the 
United States out of Mexico, and a few other things that might 
be interesting, but I want to focus on agriculture.
    White noodles in Asia, the most highly-prized white 
noodles, are made from white wheat that grows in Washington and 
Oregon, and it is shipped through the northwest ports. It has 
been going on since the 1930s. The companies--Temco, which is 
co-owned by Cargill and CHS--have employed longshoremen for 30 
years under a union agreement. And recently, two Japanese 
companies, conglomerates, have come in, bought places. Marubeni 
and Mitsui have--are now operating in Washington and Oregon, 
and have demanded a concessionary agreement from the labor 
unions.
    Now, at the same time, Cargill and CHS have been 
negotiating, and they came up with an agreement that was 
approved by 75 percent of the union members. The Japanese 
conglomerates, their concessionary agreement that they forced 
on the people was rejected by 95 percent of the people in these 
unions.
    And it seems to me that when companies are coming in to do 
business with our labor unions, and they are now demanding 
concessionary agreements and have locked the members out, they 
are running with scab labor and with their administrative 
people--that is how they are running the graineries--it seems 
like a strange time for them to want to come and negotiate 
labor agreements in a TPP. And I understand that USTR has been 
working with the Japanese on this issue.
    And I would like if you could give us some idea of what the 
status is of the resolution of this kind of issue, because it 
is a PR problem for them to come in to do union-busting at the 
same time they are talking about negotiating a trade agreement.
    Ambassador FROMAN. Well, thank you, Congressman McDermott. 
And thank you for raising this earlier. I think last year, you 
and some other Members of the Washington Delegation raised 
this, and we engaged with the government of Japan on this 
issue, made clear exactly the point that you made, that it was 
important for this issue to get resolved. My understanding is 
that it has not yet been resolved, and we are encouraging the 
parties to come together and get it resolved, as a labor 
management issue. But we are going to continue to monitor that.
    Mr. MCDERMOTT. Do you see that as being an impediment to 
getting the votes in the Congress, if these kinds of issues are 
out there? I mean we have already heard from the chairman, 
talking about automobiles. And then you are talking about the 
docks where you have got dock workers, and you--is--how are you 
going to get around that in your negotiations?
    Ambassador FROMAN. Well, I think we will make clear to our 
trading partners on a number of the issues that Members of 
Congress have that making progress on those issues, resolving 
those issues, is part of creating the environment in which this 
agreement is going to be considered, and considered favorably.
    And so, it certainly contributes to the overall atmosphere 
around this agreement.
    Mr. MCDERMOTT. I have a major steel plant--people think of 
Washington State, they think of Boeing and Starbucks and 
Microsoft. That is not all of Washington. Our major export is 
agricultural goods, but I have actually got a steel plant right 
in the middle of Seattle that makes the best rebar, the 
cleanest rebar plant in the whole world, I think.
    But they are being flooded by Mexican rebar. What kind of--
or at least they feel they are. What kind of situation do you 
have--because the Mexicans are in this, as well as the 
Japanese. It isn't--you know, the problems you have are all 
over the place.
    Ambassador FROMAN. Well, my understanding is, on steel 
issues and the rebar issues, that there are cases that are 
working their way through, or pending at the Department of 
Commerce and the ITC as part of our trade remedies laws, anti-
dumping and countervailing duty cases. Those are quasi-
adjudicatory processes run by the Commerce Department and the 
ITC. It is something we are monitoring but we are not directly 
involved in, because they are quasi-adjudicatory and under the 
control of the Commerce Department and the ITC. But we will 
monitor that.
    Mr. MCDERMOTT. Another time I will talk to you about drug 
prices.
    Ambassador FROMAN. Happy to.
    Mr. MCDERMOTT. Glad to see you here.
    Ambassador FROMAN. Thank you.
    Chairman CAMP. All right. Mr. Brady.
    Mr. BRADY. Thank you, Mr. Chairman, for holding this 
hearing. You know, trade is economic freedom. It is the ability 
to buy and sell and compete around the world with as little 
government interference as possible. And what it means is that 
when that mom walks into a grocery store, or that college 
student goes online, the choices they see and the prices they 
pay are determined by them, rather than some government 
somewhere.
    And so, the work you are doing, Ambassador, is just 
critical in results not just in new jobs here, in America, but 
in new choices in families being able to stretch their 
pocketbook farther. So this has a real impact on our families. 
That is why I hope our trading partners understand this 
Congress is pro-trade. We support an aggressive trade agenda. 
And the work that you are doing in the Asia-Pacific, in Europe, 
in international services and facilitation and technology, is 
exactly what we think is important to get this economy going. 
And you have got a great team behind you. So I want to commend 
you just for your overall approach. I think it is exactly the 
right tone, exactly the right substance, at exactly the right 
time, especially in a world whose economy is, frankly, 
struggling a bit. And you can play a role in doing that.
    So, I want to ask you about the Asia-Pacific region. You 
know, by some estimates, 80 percent of all the new economic 
growth in the world will occur in the Asia-Pacific region. We 
want to be, as Americans, where those new customers are. The 
Trans-Pacific Partnership is really a 21st century trade 
agreement, unlike others in the past, and I think will have 
tremendous value.
    So, what is your strategy? I know the goal has been to 
complete that by the end of the year. What do you see--what is 
your strategy toward that end? What are some of the challenges 
that you face in trying to close that out in a timely way?
    Ambassador FROMAN. Well, thank you, and thank you for your 
support, and for the support of my team, Congressman Brady.
    As you said, TPP and this region is so critically important 
to our economy here. Right now, there are 500 million middle-
class consumers in the Asia-Pacific region. That number is 
expected to grow to 2.7 billion between now and 2030. And the 
question is, who is going to serve that market?
    Mr. BRADY. Yes.
    Ambassador FROMAN. Are they going to be buying American 
goods and taking American services? Or are they going to be 
getting their goods and services provided by somebody else? 
What are going to the be the rules defining trade in the 
region? Are they going to be the high standards that we are 
pressing for on labor and environment, on intellectual property 
rights? Are there going to be disciplines around state-owned 
enterprises, so there is a level playing field with private 
companies? Will we be taking the digital economy into the 
future, and making sure that the Internet is free, that we 
avoid restrictions on the flow of information? That is what is 
at stake with TPP, because we are not the only party out there.
    Mr. BRADY. Yes.
    Ambassador FROMAN. There are other parties out there with 
very different versions and visions of trade, who are also out 
there negotiating agreements. And if we sit on the sidelines 
and don't fulfill our leadership role in this effort, others 
will help define the rules for us. And that will put our 
workers and our firms very much at a disadvantage.
    We are well down the road in these TPP negotiations. We are 
in the end game. We have a reasonable number of outstanding 
issues on rules, and we have some critical outstanding issues 
on market access. As the chairman talked about earlier, the 
critical issue right now is Japan, market access on agriculture 
and on autos. It is then bringing Canada to the table, because 
I think Canada is waiting to see what happens with Japan.
    Mr. BRADY. Yes.
    Ambassador FROMAN. Once the market access piece falls into 
place--and all the other countries are waiting for Japan to 
play its appropriate role in this negotiation--once the market 
access piece falls into place, we expect to be able to resolve 
the other issues around the rules. There are difficult issues 
that are left.
    Mr. BRADY. Yes.
    Ambassador FROMAN. There is a reasonable number of them. 
Our negotiators are working around the clock, here and around 
the world, to narrow those differences and close them out.
    Mr. BRADY. Well, I would like to see Japan included in 
this, but they have got to hit the standards, you know, that we 
are insisting among all our trading partners. Do you expect to 
be able to complete this this year? *Ambassador Froman. Oh, 
very much so. I mean we are focused on, as I said, working 
around the clock to get this done as soon as possible.
    Mr. BRADY. And, obviously, we appreciate the work, in a 
bipartisan way, we continue to build support for the Trade 
Priorities Act, so that we can really direct the White House 
toward our negotiating objectives to make sure there is strong 
consultation, and we can assure others of a timely vote. I 
think that is critical, as well. So, thank you, Ambassador, for 
the work you are doing.
    Ambassador FROMAN. Thank you.
    Chairman CAMP. Thank you. Mr. Lewis.
    Mr. LEWIS. Thank you very much, Mr. Chairman, for holding 
this hearing. Mr. Ambassador, welcome. Thank you for your great 
work, and thank you for being here today.
    You know, Mr. Ambassador, in our own country we believe in 
certain basic rights, certain basic freedoms: freedom of the 
press, freedom of assembly, freedom of worship, open and free 
election. You said a moment or so ago in your statement that a 
trade policy should be a reflection of our values. How do you 
square this with a country like Vietnam?
    Several people from my district came here to Washington 
last week, a Vietnamese-American who fleed [sic] Vietnam 
because of Communism, because of suppression. And they are 
asking, they are raising a question. How can we trade with 
Vietnam? How can we do it?
    Ambassador FROMAN. Well, Mr.----
    Mr. LEWIS. Or with China.
    Ambassador FROMAN. And we very much----
    Mr. LEWIS. And Vietnam has such a strong relationship with 
China. How can we go down this road? How can we get in bed with 
them?
    Ambassador FROMAN. Well, through our negotiation with them, 
we are working to address some of the issues that you 
mentioned. For example, on labor rights, which is a key issue 
in Vietnam, we want to make sure that there is a meaningful 
rights of association, a meaningful right to collective 
bargaining, meaningful disciplines on forced labor, child 
labor, meaningful disciplines and commitments on acceptable 
conditions of work, all consistent with the ILO standards, and 
a work program that can achieve that objective.
    In all of our meetings with the Vietnamese government, from 
the president on down, when the President met with the 
president and prime minister of Vietnam, all the way on down, 
human rights are very much part of our agenda, and we talk 
about the importance not only of what we are doing in the 
agreement on labor rights, but also the importance of Vietnam 
making progress on outstanding human rights issues as being an 
important part of creating the environment in which there would 
be support for this agreement.
    Also, when you look at the agreement more generally, if you 
look at what we are trying to do on the digital economy and the 
Internet, about the free flow of information, that, too, is 
supportive of some of those values that you mentioned about 
freedom of speech, making sure people have access to 
information, that governments are not putting restrictions 
around the Internet.
    So, it is not that we can transform a country completely, 
or solve every problem through a trade agreement. But, through 
the trade agreement, we could engage in such a way as to make 
meaningful progress on these sorts of issues beyond where we 
are in the status quo. I think the question is--you take a 
country like Vietnam, which has well-known challenges. What is 
the best way, what is the most effective way of improving the 
situation there for workers, for minorities, for people who 
want to worship? And our view is engagement with them through 
this trade negotiation is the most effective way of making 
progress on those issues.
    Mr. LEWIS. Do you have any assurance that 5 years from now 
or 10 years from now, that we are going to see radical changes 
in Vietnam? People receiving starvation wages there.
    Ambassador FROMAN. Well, that is exactly why, for example, 
in the labor chapter, creating some fundamental labor standards 
about right of association, right to collective bargain, 
restrictions on forced and child labor, decent conditions of 
work, that is one reason in having those be enforceable, having 
them be binding and enforceable. And our ability to continue 
and, over time, ensure that those are upheld is a central part 
of what we are trying to negotiate.
    I, too, met with a group of Vietnamese emigres, as well as 
human rights activists around Vietnam before I went to Vietnam 
last time, precisely to make sure we understood what their 
priorities were. And we are working with the State Department. 
The State Department is having a human rights dialog, I 
believe, next month with Vietnam as part of our ongoing 
engagement with them, as part of TPP and our overall engagement 
to try and address these issues.
    So, it is high on our agenda, and we think it is very 
important that Vietnam make progress on these issues, as part 
of our ongoing engagement with them.
    Mr. LEWIS. Mr. Ambassador, let me just ask you this last 
question. Do you believe that it is fair to keep the text of 
this important historic negotiation hidden from the American 
people?
    Ambassador FROMAN. Well, we are always looking for ways to 
improve the transparency and the input that we get from 
stakeholders, from Congress, and from the American public. You 
know, I would say, first and foremost, we engage with Congress. 
And Congress is the people's representatives. We look to--and 
particularly our Committees of jurisdiction--to provide input 
on every proposal we table, and to give us feedback throughout 
that process.
    We have a group of cleared advisors that represent not just 
different businesses, but every major labor union, 
environmental groups, consumer groups. And, as I mentioned in 
my testimony, we are launching a new advisory Committee to be 
able to bring in other public interest groups into the process. 
We want to make sure we have got their input.
    We have experimented with putting out for the public 
summaries of our TTIP objectives, summaries of our 
negotiations, to try and be as public as possible and be as 
transparent as possible, while at the same time ensuring that 
we can negotiate the best deal for the American people. And I--
--
    Chairman CAMP. All right, thank you. Time has expired.
    Ambassador FROMAN. Sorry.
    Chairman CAMP. Mr. Tiberi.
    Mr. TIBERI. Thank you for being here, Ambassador. Japan's 
unwillingness in TPP to meaningfully open up its market to 
agricultural products like pork, beef, dairy, as well as 
processed products containing these products, I believe, is 
unacceptable. I met with a group of farmers, pork producers 
from my district in Ohio, yesterday. And they are very 
concerned about this particular issue.
    As you know, the United States has sought in past trade 
negotiations comprehensive liberalization with respect to 
agricultural products. This is true for agreements with both 
developed and developing countries. So, if Japan is allowed to 
continue to remove entire categories like agricultural products 
from liberalization, I know the agriculture sectors'--the pork 
producers, in particular--support for TPP will be jeopardized.
    So, as you continue down this road in negotiating with the 
Japanese, will you commit to us today not to allow the Japanese 
to exclude agricultural markets from the TPP?
    Ambassador FROMAN. Yes. I mean our goal in TPP, and the 
goals that Japan signed up for when it joined TPP, is exactly 
what you have said, which is comprehensive market access. And 
that is exactly what we are going to achieve, we are working to 
achieve, in this negotiation.
    It is a difficult negotiation. They have not yet come to 
the table with a position that allows us to bridge our 
remaining gaps on a series of commodity issues. Not just pork, 
but other issues, as well. But we are continuing to press them 
with the goal of achieving comprehensive market access.
    Mr. TIBERI. And you----
    Ambassador FROMAN. And we agree that there shouldn't be 
exclusions of commodity groups from this agreement.
    Mr. TIBERI. And don't you agree that if you exclude a 
number of things in this agreement, that that just sets us up 
for further exclusions down the road in other free trade 
agreements?
    Ambassador FROMAN. Well, we think that the TPP was intended 
to be an ambitious, comprehensive, high-standard agreement, a 
21st century agreement. That is the conditions under which all 
12 of us joined the negotiation. And we think it is important 
that Japan come to the table to achieve that objective, 
absolutely.
    Mr. TIBERI. So I can tell the pork producers in Ohio, at 
least, that you are committed to not allowing exclusions of----
    Ambassador FROMAN. That is----
    Mr. TIBERI [continuing]. Products like agriculture, pork, 
beef----
    Ambassador FROMAN. We think everything should be on the 
table; everything should be included. That is what a 
comprehensive agreement is.
    Mr. TIBERI. I appreciate that. A second issue that is--not 
totally within your wheelhouse. A number of manufacturers in 
Ohio have told me they have seen a surge in steel coming from 
outside the United States. And some of that comes from 
countries that obviously have some government subsidies with 
respect to their industries. And, obviously, the Department of 
Commerce is involved in this, as well. Is this something that 
your office is aware of, and sees, and is concerned about?
    Ambassador FROMAN. Yes. I mean it is something we are aware 
of. I meet with the steel industry on a regular basis, as well 
as with the steel workers on a regular basis. And it is exactly 
one of the reasons why, in TPP, we are trying to get at issues 
like state-owned enterprises, state-owned enterprises that 
benefit from subsidies or regulatory forbearance. They may, 
back home, have cheap land and cheap energy and all sorts of 
benefits, and then they compete against our firms on an unfair 
playing field. And, through TPP, for the first time, we are 
creating disciplines to try and level the playing field between 
state-owned enterprises and private firms. It is one of the 
most important new issues being dealt with by TPP. It would 
affect, of course, not just the steel industry, but other 
industries, as well. But the steel industry is one in which 
there is a lot of state-owned enterprise involvement.
    Mr. TIBERI. I would like to send you a follow-up letter on 
this issue, kind of getting into the deeper grass on this, if 
you could just be alert to that.
    Ambassador FROMAN. Absolutely.
    Mr. TIBERI. And I would love to have your further input 
from you and your staff. Yield back.
    Ambassador FROMAN. Look forward to it.
    Mr. JOHNSON [presiding]. Thank you. Mr. Neal, you are 
recognized.
    Mr. NEAL. Thank you. Thank you, Mr. Chairman. First, I want 
to thank you, Mr. Ambassador, for the work that you have done 
outside of Committee hearings with footwear across New England. 
You have been very helpful, very good with your time, and you 
have tried really hard to speak to the specific questions, 
understanding that there is a footwear industry that is still 
alive in New England, and we certainly want to keep it that 
way.
    One of the biggest issues that surround the question of 
trade agreements, obviously, is enforcement. And there is a 
suspicion, as you know, that geopolitics sometimes gets in the 
way of enforcement. And I think it is particularly acute when 
it comes to intellectual property rights. And clearly, I think, 
in currency manipulation, as it related to China.
    But let me follow up specifically on something that Mr. 
Tiberi said, because I think it bears noting, and that is the 
suspicion that one of our trading partners is in the midst of 
dumping steel. And we need to be mindful of that as part of the 
enforcement agreements that I spoke of just a couple of moments 
ago. And I think, specifically, there is some concern that 
South Korea is illegally preparing to dump into the U.S. 
market. And I know that the Commerce Department is considering 
filing a complaint. And maybe you could bring us up to date on 
that.
    And the last comment I want to make to give you some time 
just to talk about these issues, when it comes to trade 
adjustment assistance, there have been hodge-podge programs 
across the country. And the truth is that the jury is kind of 
out still. Some work, and some don't work. Might I suggest that 
we direct more of the trade adjustment assistance to community 
colleges? I think that would be the atmosphere, which would be 
more conducive to preparing people for the skill set that they 
are going to need if they are dislocated because of changes 
that trade, they suspect, have created.
    So, I would give you some time on both points.
    Ambassador FROMAN. Great. Well, thank you, Mr. Neal. And 
certainly we agree completely on the importance of enforcement, 
and we have had a very robust enforcement agenda throughout 
this Administration. We have brought more cases to the WTO than 
ever before. We have doubled the rate in which we have brought 
cases against China.
    We have created something called the Interagency Trade 
Enforcement Center based at USTR, with a lot of support from 
Commerce, but also support from a number of other agencies, 
which has allowed us to put together more complicated, complex 
cases to be able to bring to the WTO or--under our trade laws. 
We think that is vitally important, that if we are going to 
negotiate agreements, that part of the bargain with the 
American people is that we fully enforce the rights that we 
fought so hard for.
    And so, we are fully committed to that, and we are always 
looking for additional cases to bring, putting together the 
positive cases.
    The particular AD, or anti-dumping, or countervailing duty 
cases you mentioned, are the province of the Commerce 
Department and the ITC, of course, and we are not directly 
involved in those. We are not involved in those unless they are 
challenged at the WTO, and then we defend our trade laws in 
front of the WTO. But we do monitor issues like steel very 
closely.
    You know, on the trade adjustment assistance and worker 
retraining, we will certainly take--ultimately take those views 
back to the Department of Labor and the Domestic Policy Council 
and others who are involved in this. As you know, in the 
budget, the President has a proposal for comprehensive skills 
development, and we also have the trade adjustment assistance 
program, which expires in December, and we very much support 
making sure that American workers have the support and skills 
that they need to compete in the global economy.
    Chairman CAMP. [Presiding] Thank you. Mr. Reichert.
    Mr. REICHERT. Thank you, Mr. Chairman. Welcome, Ambassador. 
Good to see you again, and I want to add my compliments, as 
almost every other Member has, to you and your team for your 
efforts. And I know there are excruciatingly long days--if I 
can pronounce that correctly it would be good. I know that you 
are really putting forth major effort here.
    You mentioned your 1,200 meetings. And we are reaching out, 
too. Just yesterday, Mr. Boustany and I met with some of the 
ambassadors from six countries--representative of the 12 
countries that you are negotiating with. And they have 
mentioned to us that, you know, the United States has the ``big 
pen'' in this. And it was the term that they used over and 
over, and that they are holding onto the pen with us, and they 
want to work and be a part of the team.
    I am proud to be a member of the Export Council, and have 
met you there many times, along with the President. And at the 
last meeting that we had the President mentioned to us how much 
he appreciated our efforts, and how much he wanted to work with 
us. And, in that vein, four of us who are the co-chairs of the 
Friends of TPP sent the President a letter on January 15th of 
this year. And we have yet to have a response from the 
President on requesting to meet with him.
    We feel like we could be helpful, because of the meetings 
that we are holding here with our Republican friends and the 
interaction we have with the other side of the aisle, with Mr. 
Kind and Mr. Meeks as co-chairs, along with Mr. Boustany and 
myself. If you could relay our message to the President, that 
we would like to see a response to that letter, that would be 
very helpful.
    And I especially appreciate your repeated comments about a 
high standard, comprehensive--your strategy that you laid out 
for the year. But I just want to mention to you how important 
it is for Washington State to get this agreement completed. And 
I know you see, you know, the whole United States and how 
important this is. But in my home state there is a recognition 
that over 40 percent of jobs are tied to trade, and that we 
need high standard-trade agreements to grow these jobs, and I 
know you agree with that.
    As a result, I consistently hear from businesses, local 
chambers of commerce, and farmers in my home state about the 
need to renew and update TPA, and this is why I support 
Chairman Camp's TPA legislation. This is not just the sentiment 
in Washington State, and recently we have seen polling data 
showing that the American public has become more supportive of 
a trade agenda that keeps the United States competitive, and 
increases jobs.
    So, I am interested. In your discussions around the 
country, are you seeing this recognition of how trade and 
potential agreements like TPP, TTIP, and TiSA can help the 
United States? Are you hearing more and more encouraging words, 
I am hoping, from folks across the country as you and your team 
reach out?
    Ambassador FROMAN. Well, thank you, Mr. Reichert, and thank 
you for your leadership on the TPP Caucus, as well.
    Yes, as we travel around and meet with small and medium-
sized businesses and their workers who see the benefit of 
opening markets, being able to expand their production, expand 
their exports, grow their work force, we are seeing that. But I 
think it is incumbent on all of us to continuously make the 
case to the American people about what is at stake, and what 
the potential opportunities are.
    As I think the chairman said in his remarks, 95 percent of 
the world's consumers are outside the United States; 80 percent 
of the purchasing power is outside the United States. The 
growing middle classes that are going to buy made-in-America 
products are growing fastest outside the United States. We need 
to be there. We need to be on the field, opening those markets 
for our products, making sure that the rules of the game for 
that system allow us to compete on a level playing field. And 
that is exactly what we are trying to do through TPP, and what 
we are trying to do through TTIP.
    But we need to continuously be out there and making that 
case. There is a lot of misinformation out there about trade 
and about trade agreements, and we need to take that directly 
on and make clear to people exactly what the benefits of trade 
are, the benefits of exports, and how it relates back to jobs 
and incomes here, in the United States.
    Mr. REICHERT. Thank you for your time and your answer. And, 
again, appreciate it if you could pass on the message to the 
President that we would like to see a response.
    Thank you, I yield back.
    Chairman CAMP. Thank you. Mr. Becerra.
    Mr. BECERRA. Thank you, Mr. Chairman. Ambassador, thanks 
for being here. And, Mr. Chairman, by the way, I think all of 
us echo the remarks that were made earlier about your service 
to our country and to this Committee.
    Chairman CAMP. That means a lot from a fellow survivor of 
the super Committee.
    [Laughter.]
    Mr. BECERRA. That is right. You are welcome to stay with us 
if you like, Mr. Chairman. It is not too late.
    Ambassador, let me--actually, the chairman hit on this 
point, and I would like to get back to it a little bit, the 
whole issue of currency. Over the last few years, it has been 
tough, on occasion, for Members in this body to come together 
and speak with one voice as American legislators, versus our 
particular political philosophies. I think on currency you find 
that, whatever part of this dais, I think a number of us are 
very concerned about the role currency manipulation has played 
in making it harder for some of our businesses to compete, in 
making it hard for some of our businesses to keep jobs in 
America. And, quite honestly, hard for a lot of Americans who 
are still unemployed to find another good-paying job.
    And, for many of us, the issue of currency manipulation 
must be addressed because, while it is not a direct trade 
activity, the fact is if a country can keep its--the value of 
its currency lower than what it really is, it makes the 
products it produces look far more inexpensive than they really 
are. And if you can get into a market and take over that 
market, at some point you are able to lift the value of that 
product and extract extra dollars from folks.
    And I think, for many of us, it would be very important to 
see currency manipulation addressed moving forward in these 
agreements we have with our competitors, our foreign 
competitors, whether it is these trade agreements or otherwise, 
but really dealing with it.
    I know that the Peterson Institute for International 
Economics has estimated that half of the excess unemployment in 
the U.S. today is attributable to currency manipulation by our 
foreign competitors. Give us a little bit more of a sense of 
how USTR is doing in trying to get our partners and competitors 
who we are working these deals out with to abide by currency 
standards that avoid the manipulation that we see in the 
markets.
    Ambassador FROMAN. Well, thank you, Mr. Becerra. First of 
all, of course, I should say the Treasury is the agency that 
has the lead on currency issues. But this administration also 
believes that currency is an issue and, from the very start of 
the administration, has made clear in its bilateral engagement 
with countries like China, in its engagement with the G20, 
where there were--we had agreement by all the G20, including by 
China, to move toward market-oriented exchange rates, through 
the Treasury Department's engagement with the G7 partners, to 
ensure the G7 countries abide by the same kind of rules.
    We have made clear throughout that this is an issue, and we 
want to make sure that we are moving countries in a positive 
direction. And as I mentioned earlier, taking China as an 
example, we have made some progress. Not enough, not fast 
enough, nor far enough. Something that requires continued focus 
and continued pressure at every opportunity. But we are making 
progress through the various mechanisms.
    Secretary Lew, I know he--you had an opportunity to see him 
up here testify recently, had an opportunity to talk to him 
about this. And I thank Secretary Lew and his consulting on 
this, we are working with the Treasury Secretary, the Treasury 
Department, consulting with Members up here, with other 
stakeholders, to determine how can we be most effective in 
addressing the underlying concern.
    Mr. BECERRA. And I think you have seen that the greater the 
action is in trying to deal with currency manipulation, 
probably the likelihood of having trade promotion authority 
passing trade deals rises because there is more confidence in 
this institution that we will finally tackle something that is 
an invidious way to try to get a leg up over the United States 
of America and its businesses and its workers.
    It is very interesting, because 20 years ago, when I got 
here, one of the big issues was dealing with how we treat 
workers throughout the world, labor. And we always thought of 
trade deals as dealing only with the capital side of things, of 
the equation. But now we recognize that you can undermine a 
trade deal by undercutting labor, the value of work, or 
workers. And can you comment on how you think we are doing with 
regard to dealing with labor and the environment in these trade 
deals that are moving forward?
    Ambassador FROMAN. Well, thank you for making that point, 
because you are absolutely right. Twenty years--
    Chairman CAMP. We just have a few seconds, so if you could 
be quick--
    Ambassador FROMAN. Sorry. Twenty years ago, labor and 
environment were really considered to be side issues, and not 
issues that were core to the agreement. And now, under U.S. 
leadership, in our recent FTAs and certainly in TPP and TTIP, 
labor and environment, high standards, fully enforceable, are 
going to be absolutely core to those agreements, and that 
creates a new global standard.
    Chairman CAMP. All right, thank you.
    Mr. BECERRA. Thank you, Mr. Chairman. Thank you.
    Chairman CAMP. Thank you. Dr. Boustany.
    Mr. BOUSTANY. Thank you, Mr. Chairman. And I, too, want to 
thank you for the tremendous work USTR has been doing under 
your leadership.
    Mr. Ambassador, I firmly believe that the source of 
America's strength and our capacity to lead internationally is 
our strong and hopefully growing economy, and our willingness 
to engage. And you can argue that our most important export is 
the fair application of rule of law. And you are right--the 
work you are doing is right at the center of all of that.
    I want to focus on the investor state dispute settlement 
issue. I believe that having a strong investor state dispute 
mechanism in place is critical to protecting U.S. investors 
doing business abroad. This is especially important for 
companies engaged in energy projects. In my district, we have a 
lot of companies that engage internationally, and this is 
something I hear from them, that they want to see strong 
provisions in any trade agreements that we have.
    Clearly, having access to a neutral third-party arbitration 
when there is disagreement with governments is something that 
is really important, especially in light of what has happened 
historically with U.S. oil and gas interests around the world. 
And so I believe having--a key element is that these provisions 
cover so-called investment agreements that these firms 
negotiate with host governments before they actually invest 
hundreds of millions or even billions of dollars to develop 
these resources.
    So, in the TPP negotiation, several countries have 
certainly come out in opposition to inclusion of these types of 
protections, even though they do exist in other trade 
agreements. And I want to give you an opportunity to share your 
views on this. And do you share that view, that we ought to 
have a very strong investor state dispute mechanism in this 
trade agreement?
    Ambassador FROMAN. Well, thank you, Dr. Boustany. The--
there are something like 3,200 investment agreements around the 
world. And a very significant percentage of those have 
something like investor state dispute settlement.
    Our approach has been, after a four-year review of our 
bilateral investment treaty, and then consultations with 
Congress and the public and the run-up to the TPP and TTIP 
negotiations, has been to put forward an investor state dispute 
settlement process that assures that the same kind of 
protections that we provide to domestic and foreign investors 
in the United States, in terms of expropriation and due 
process, are also available to our investors when they operate 
abroad. It is no guarantee of profits. It is a guarantee that 
if they are expropriated without compensation, they have got 
recourse. And that is the same kind of right that we provide 
here, in the United States.
    We think it is very important that we are able to provide 
that kind of support for investors, at the same time assuring 
that governments can regulate as they see fit in the public 
interest for health, safety, environmental protection. This 
shouldn't be used as a mechanism to undermine government 
regulation. It should be used to ensure that investments are 
not--investors, foreign investors, are not discriminated 
against vis a vis domestic participants.
    And so, that has been our approach on investor state. This 
is one of the outstanding issues in the negotiations, including 
the investment agreement provision that you alluded to. But 
that is the fundamental approach that we have been taking 
toward that issue.
    Mr. BOUSTANY. And, briefly, with the time remaining, can 
you address--give us sort of a status report on the 
negotiations on--with regard to SOEs. I know that is another 
contentious area.
    Ambassador FROMAN. We have made some very significant 
progress on SOE--on the SOE chapter. And I think there is now 
broad agreement among the TPP countries about the importance of 
leveling the playing field between SOEs and private firms, and 
ensuring that if SOEs are getting non-commercial assistance 
from their governments--subsidies, in effect, that--and those 
subsidies are creating injury to the private firms, that there 
is recourse there.
    So, we have a robust SOE chapter that lays out the 
principles, lays out transparency provisions, ensures that 
there is dispute settlement that we are seeking for that 
chapter as well, so that our private firms can have a more 
level playing field, vis a vis SOEs.
    I should just say--just back on investor state for a 
moment--the other part of what we are doing in investor state 
is ensuring that we are adding safeguards to support the 
ability of governments to regulate by the ability to dismiss 
frivolous claims, of awarding damages--awarding attorneys fees, 
ensuring that government--assuring that non-parties can 
participate in the ISDS process, that there is transparency, 
all with the goal of ensuring that legitimate regulation is 
provided for, while at the same time ensuring that 
discrimination against foreign investors, there is recourse 
against that.
    Mr. BOUSTANY. Thank you very much. I yield back.
    Chairman CAMP. Thank you. Mr. Doggett.
    Mr. DOGGETT. Thank you, Mr. Chairman. Thank you, 
Ambassador. In March 2012, as you know, a complaint was filed 
concerning Honduran labor practices under CAFTA. It was 
accepted in May of that year, and was supposed to receive a 
report within 180 days. It has now been over two years. When do 
you expect that that report about Honduran labor practices will 
be published?
    Ambassador FROMAN. Thank you, Mr. Doggett. I will check and 
get back to you. I don't know what the status of that report 
is, but I will be happy to get back to you after this hearing.
    Mr. DOGGETT. You have made considerable emphasis on the 
value of the May 10th agreements concerning the labor and 
environmental protection agreements that, at the time, were the 
most that could be obtained from the Bush administration and 
the least that could be accepted. But under those May 10th 
agreements, has the United States ever initiated on its own 
volition any complaint concerning labor or environmental 
practices in Colombia, Peru, Korea, or Panama?
    Ambassador FROMAN. I don't think we have brought a dispute 
settlement----
    Mr. DOGGETT. Yes, sir.
    Ambassador FROMAN [continuing]. Case yet under those 
agreements. We do in----
    Mr. DOGGETT. And that is despite the fact that----
    Ambassador FROMAN. We----
    Mr. DOGGETT [continuing]. With reference to Peru logging, 
for example, logging imports to the United States have gone up 
substantially, and the World Bank continues to estimate that 
over 80 percent of that Peruvian hard wood is illegal. I know 
you have done some investigations, but there has never been a 
complaint filed. And I think, when we look to how Vietnam will 
be treated, we have to look at what the experience has been 
under these previous labor agreements.
    As you know, the reports out today--and there were last 
week--of the European Union trade commissioner complaining 
about the position that the United States has taken on dispute 
resolution and on transparency. Under the dispute resolution 
process, you have told me previously that, though we have no 
dispute resolution with Australia, we haven't had any problem 
for our investors there, or their investors here.
    As far as the dispute resolution process is concerned, is 
there a right to appeal from one of these arbitration panels?
    Ambassador FROMAN. In the existing ISDS procedures that 
exist in, I think, the 40 or so agreements in which we have 
them, there is no separate appeals process. By the way--
    Mr. DOGGETT. Is there a concern that, in a country such as 
the United Kingdom or France or Germany or Denmark, that the 
court systems are not sufficiently mature there to provide 
adequate protection to U.S. investors of a level that they 
would receive in the United States courts?
    Ambassador FROMAN. Well, as I said in response to Dr. 
Boustany's question, there are 3,000 or so agreements out there 
on investment.
    Mr. DOGGETT. Yes, sir. I----
    Ambassador FROMAN. And through our----
    Mr. DOGGETT. I understood your answer; I just want to know 
if you think their court systems are----
    Ambassador FROMAN. If I could complete it, through our TTIP 
and TPP negotiations, we are seeking to raise the standards of 
what applies in an ISDS procedure----
    Mr. DOGGETT. But not to use the courts.
    Ambassador FROMAN. And to add safeguards so that the 
standards, overall, of the international trade and investment 
regime will be higher than they are now. We can't change those 
3,000 agreements, but we can, through our future negotiations, 
introduce new standards into the international system that 
become the new standards. And that is what we are trying to do 
through our ISDS procedures.
    Mr. DOGGETT. If you can't respond this morning on whether 
you think the court systems of those European countries are 
inadequate, I would appreciate your responding in writing, and 
your also responding in writing to the letter that has been 
pending since last fall from a number of Members of this 
Committee and others concerning tobacco and the position that 
you have taken with regard to tobacco.
    You stated, sir, previously, that your confidence in these 
dispute resolution systems is such that you will, in these 
negotiations, treat environmental and labor law enforcement the 
same way you treat other kinds of trade disputes, and that, in 
fact, that position was non-negotiable. Is that still the 
position of USTR and the Administration today, that ensuring 
that labor and environmental law provisions are treated the 
same way as other trade disputes through----
    Ambassador FROMAN. Yes, our view is that labor and 
environment ought to be binding, subject to the same kind of 
dispute settlements, including the availability of trade 
sanctions.
    Mr. DOGGETT. No different than----
    Ambassador FROMAN. No different than IPR or commercial or--
--
    Mr. DOGGETT [continuing]. Anything else. And if both of 
these agreements don't include those provisions, they won't be 
submitted by the Administration----
    Ambassador FROMAN. I can't envisage concluding an agreement 
that doesn't have binding, enforceable labor and environment 
provisions.
    Mr. DOGGETT. The other issue that complaint has been made 
by the European Trade Commissioner is that the United States is 
not very transparent. If our--and that is in a report that is 
out this morning. And that they would like to see more 
transparency. If the affected industries can see what the 
United States' position is, if our trading partners can see, 
why not make these agreements open to the public?
    Chairman CAMP. Well, you can answer briefly.
    Ambassador FROMAN. We each have our processes for engaging 
with the public and our various parliaments, and, in their 
case, their member states. We do it, as I mentioned, through 
consultations with our various Committees, through our 
statutorily-created advisory committees, and through a series 
of public measures, like putting out, for the first time, a 
summary of what our negotiating objectives are, chapter by 
chapter, in our TTIP negotiations.
    So, we are very much open to other ideas on transparency. 
Our systems are somewhat different. They don't consult with 
their parliament in the same way that we consult with you. But 
we have different procedures for ensuring that we get input 
from the public and from our political partners.
    Chairman CAMP. All right.
    Mr. DOGGETT. They want more transparency that you opposed.
    Chairman CAMP. Well, I think his answer, his previous 
answer, will have to stand, because we are out of time.
    Mr. Gerlach.
    Mr. GERLACH. Thank you, Mr. Chairman. Good morning, 
Ambassador. Switching gears a bit, Jackson-Vanik trade 
restrictions were lifted against Ukraine about 10 years ago, 
and thereby giving a Favored Nation trade status to Ukraine. 
What is the current status of American-Ukranian trade today, 
and how can that relationship be strengthened as expeditiously 
as possible for both American companies, as well as for the 
benefit of the Ukranian economy?
    Ambassador FROMAN. Well, one--thank you very much for your 
question. One thing that could be done is the renewal of GSP. 
Because Ukraine was a GSP beneficiary, that has expired, and we 
look forward to working with this Committee and with Congress 
to seek its renewal as soon as possible. That would benefit 
Ukraine immediately.
    Mr. GERLACH. Has the President specifically asked you to 
get involved since the outbreak of the Crimean crisis--asked 
you to take a look at American policy relative to Ukraine from 
a trade perspective to see where a greater trade relationship, 
a better trade relationship, might be one way to help the 
Ukranian economy and, of course, American businesses as well? 
Has there been any specific dialog between the White House and 
your office about that?
    Ambassador FROMAN. Yes. I mean there is a robust 
interagency process, as you might imagine, involving all of the 
agencies, the economic agencies, as well as the other agencies 
around this set of issues. We are engaging in that dialog, and 
my understanding is, in fact, there will be a delegation here 
from Ukraine at the end of next week, which I intend to meet 
with, their schedule permitting, to talk precisely about those 
issues.
    Mr. GERLACH. Would you let us know what the outcome of that 
meeting is----
    Ambassador FROMAN. Absolutely.
    Mr. GERLACH [continuing]. So we are aware of that, and see 
what we can do----
    Ambassador FROMAN. Absolutely.
    Mr. GERLACH [continuing]. From a congressional standpoint, 
to assist you in that effort?
    Ambassador FROMAN. Absolutely.
    Mr. GERLACH. Okay, thank you. Yield back.
    Chairman CAMP. Thank you very much.
    Mr. Thompson.
    Mr. THOMPSON. Thank you, Mr. Chairman. Mr. Ambassador, 
thank you very much for being here. And I have got to say you 
have been great through all of this. You are more than willing 
to meet with any of us, and you have done that a number of 
times, and I really appreciate it.
    I want to raise a couple of issues, and interested to hear 
what you have to say about it today. And if there is anything 
that you can add to it, if you would do so in a letter, I would 
appreciate that.
    I am interested in a few things, like everybody else here, 
that are district-centric. Wine, in my district, is extremely 
important. You have been out and met with a number of my 
growers and a number of the vintners. And, as we had told you 
before, the issue of geographic indication is extremely 
important. And the EU is making it very, very difficult, as we 
explained to you, and some of the things that they have done 
have created harmful trade barriers for U.S. exports. And I am 
hoping that you can work with them to show that this is not 
helpful, and do whatever you can to make sure that we can get 
some relief from this idea.
    And they are also expanding the GI stuff into the 
traditional and semi-generic terms. And this is something that 
is very, very dangerous. And I hope that we can get your 
commitment to work with us on that.
    And then, also, as we explained, in the one region of my 
area, the Napa Valley, there is a lot of poaching of names. And 
we are--we continue to be concerned that our foreign trade 
partners don't poach that name to use on their products, and we 
need a strong assurance that you will work toward that end.
    Ambassador FROMAN. Well, absolutely, Mr. Thompson. This is 
a key issue, particularly in our TTIP negotiations, but also in 
our TPP negotiations. We think our system of trademarks and 
common names works well. And we are resistant to efforts to 
create further geographic indications.
    But I go back to something I said earlier. This is one 
reason why it is important to move forward and complete these 
agreements, because we are not the only party out there. And 
the EU is negotiating agreements around Asia, and around the 
rest of the world, has a very strong perspective with regard to 
GI's. And it is important that we establish a regime that works 
for us, as well.
    Mr. THOMPSON. Thank you. You had sent me a letter in 
response to a question I had asked, I think, the last time that 
you were in regarding the Yarn Forward program, and your letter 
outlined how well it is working because about $13 billion in 
apparel is imported using the Yarn Forward rules. And that is 
fine and dandy, but that amounts to about 17 percent of the 
total U.S. apparel imports.
    So, I want to make sure that we are dealing with the 
problem, not just stating percentages, because I don't think it 
is one and the same thing. And I would like you to take another 
look at that Yarn Forward program and get back to me with 
something other than the $13 billion number, because it does 
represent a very small percentage of what it is that we are 
concerned about.
    And on outdoor apparel, I would be interested in hearing 
the flexibilities that you see that we can use to accommodate 
this industry, given the fast advancement in some of the stuff 
they are doing, and the highly technical aspects of the outdoor 
apparel industry.
    Ambassador FROMAN. Well, I would say, in answer to those 
last two points, our approach to textiles and apparel has 
always been to ensure that we are striking a balance that helps 
our domestic producers continue to be able to produce, while 
allowing importers to import products that serve customers and 
allow----
    Mr. THOMPSON. I see the orange light is on. So if you could 
give me a written response on that, I would appreciate it.
    Ambassador FROMAN. Happy to.
    Mr. THOMPSON. I have one more issue that I want to weigh in 
on again with you, and that is rice. And I am very, very 
concerned that our rice community is taken care of, and 
considered in this. And I know the rice industry didn't do well 
in the last round. And I am wondering if the Administration is 
ready to move forward without Japan, if Japan continues to hold 
back in regard to our trade efforts with them.
    Ambassador FROMAN. Well, look. Our focus is to ensure that 
Japan meets the same standards as the rest of the TPP partners, 
in terms of comprehensive, ambitious, high-standard market 
access, that nothing is excluded, and that includes rice. And 
so, we are in dialog with Japan about market access, about its 
sensitive sectors, and how to achieve meaningful, additional 
market access that is consistent with our stakeholders' 
objectives as part of this ambitious agreement.
    Mr. THOMPSON. Thank you, Mr. Ambassador.
    Chairman CAMP. Thank you. Mr. Buchanan.
    Mr. BUCHANAN. Thank you, Mr. Chairman, and thank you for 
being here today, Mr. Ambassador. I look forward personally to 
working with you.
    The economic benefits of trade are well documented, as has 
been mentioned here today: 38 million jobs are created through 
trade, 95 percent of the marketplace is outside the U.S. But I 
had an opportunity last year, where being in Beijing, in China, 
I met with two different leaders there. One, I think, was 
minister of trade or finance. He mentioned their goal has 
been--their goal this year, and going forward in the last 4 or 
5 years, is creating 20 million new jobs. I met with the vice 
premier, a separate meeting. Same thing, 20 million new jobs is 
their goal.
    So, I kind of thought to myself, ``Game on,'' because I was 
there back in the late 1980s, myself and my wife. They were a 
non-factor, in terms of the economic global economy.
    After that I had a chance to meet with our American Chamber 
there; it has got 4,500 members. And I think the general 
feeling is people are open to free trade. In fact, I saw a poll 
the other day, 80 percent of Americans are open to free trade. 
But they want to make sure it is fair. They want to make sure 
we have got access. They talked about financial products, 
intellectual property, the currency manipulation. They see what 
is happening with trade balances in the past, with Japan, and 
now with China. They just want to make sure that, at the end of 
the day--we just got done, this Committee, we worked on this--
the idea of these past trade agreements with Panama and Korea 
and Colombia, and everybody had a sense, to some extent, they 
were pretty fair. But the bottom line I got from a lot of 
members, American businesses there, they were very concerned 
about negotiations being win-win. It is fair, it is a good deal 
today, but it is a good deal for both countries two years from 
now.
    And so, I would just ask you what is your general attitude 
about--in terms of negotiation? Because I think a lot of 
American companies just feel like they have got--everybody has 
got access here, the Japanese, the Chinese, but we don't have 
the same access in those markets, and they are very concerned 
about it. And I think, you know, as I mentioned, the world has 
changed a lot in the last 30 years, the last 10 years, and we 
want to make sure we are doing everything to be much tougher 
negotiators, to make sure that our companies and our jobs are 
protected.
    Ambassador FROMAN. Well, we agree completely that--on the 
importance of both free and fair trade, and that we are using 
these agreements to break down barriers there that have 
traditionally kept us out of their markets.
    As I mentioned, our market is already relatively open. Our 
tariffs are relatively low. Our non-tariff barriers are not 
used--our regulations are not used as non-tariff barriers. And 
so, what is important through these trade agreements is to do 
precisely as you said, whether it is China or Japan or Brazil 
or any other country, is to work with them to reduce barriers 
for our exports, and also to ensure that they are upholding 
certain agreed-upon rules, like the protection of intellectual 
property.
    In our dialog with China, whether it is the strategic and 
economic dialog or the JCCT or our bilateral meetings with them 
throughout the year, one of the chief areas of focus is 
ensuring that they are using legal software, that they are 
protecting intellectual property, that they are clamping down 
on privacy, because you could have market access, but then you 
can find that your IP has been stolen.
    Mr. BUCHANAN. I think the general feeling is just in the 
past--and I am not referring so much to this administration--I 
would say in the past 30 years we have been outplayed and out-
negotiated. There is that sense there, and we just want to make 
sure, now more importantly than ever, going forward, as we 
compete in this global economy, that we are doing everything we 
can for our companies.
    Ambassador FROMAN. Absolutely.
    Mr. BUCHANAN. Let me mention on a little different note--it 
has been touched on. But, in your mind, how important is the 
TPA getting that done quickly, from your standpoint?
    Ambassador FROMAN. Well, you know, as we have said, the TPA 
is a critical tool for opening markets. But, ultimately, the 
only guarantee that an agreement is going to achieve the 
support of Congress is that we bring back a good agreement. And 
so, our focus in TPP right now, and TTIP, is on the substance 
of those agreements, and focusing with our trading partners on 
bringing back the kind of agreement that we know Congress and 
our stakeholders and the American public will demand in order 
to get their support.
    Mr. BUCHANAN. Well, what----
    Ambassador FROMAN. And that is what our focus----
    Mr. BUCHANAN. What are your thoughts on what more we could 
do on a bipartisan basis to get this done quickly?
    Ambassador FROMAN. Well, you know, again, we welcome the 
introduction of the bill in January. We are looking forward to 
working with this Committee and the Senate Finance Committee. 
And, obviously, there has been a change of leadership there, 
and we know that Chairman Wyden is consulting with the 
Democrats and Republicans on his committee on the best way to 
move forward.
    Ultimately, we would like to get a TPA bill that has got as 
broad bipartisan support as possible, and we look forward to 
working with you on that. But, in parallel, we are going to 
continue to work to try and close TPP as an ambitious, high-
standard, comprehensive agreement.
    And our message to our trading partners--and I think they 
follow our discussion here quite closely--is that the only 
guarantee is we bring back a high-standard agreement. We know 
what a high-standard agreement looks like. It has got to have 
labor, and it has got to have environment. It has got to have 
intellectual property rights. It has got to have state-owned 
enterprises. It has got to deal with the digital economy. Those 
are issues we need to get resolved in this agreement before we 
will feel comfortable closing it and bringing it back.
    Chairman CAMP. All right. Thank you. Mr. Larson.
    Mr. LARSON. And thank you, Mr. Chairman. And, Mr. Chairman, 
as I said yesterday, I want to remark again and thank you for 
your exceptional service to this Committee and to the country 
and to the State of Michigan. You will be dearly missed. And I 
wanted to acknowledge you publicly again.
    Ambassador, thank you for being here and meeting with us as 
often as you have, underscoring the openness and accessibility 
that you have had. But I wanted, for the record--and we 
discussed prior to coming in to the meeting--I had an 
opportunity to meet with the Greater Hartford Labor Board and 
they posed a series of questions, more than I could even get to 
in the time slot that I have here, as did Representative Rosa 
DeLauro. And I have submitted them to you and your staff. I 
would appreciate an answer to those.
    And, as I mentioned, as chairman of the--co-chair of the 
Shellfish Caucus, obviously we are concerned about the EU ban 
on United States shellfish. And I am hoping that we can meet 
specifically on that, as well.
    My question for you today has to deal with intellectual 
property. And I want to commend Erik Paulsen, who led a letter 
earlier this year, along with myself, to the President. I 
appreciate the response from the administration, the President, 
the Vice President, yourself. We have met, in fact, and had 
ensuing meetings with the ambassador from India. We hope to 
have him up to Connecticut.
    But the concern remains. And what I wanted to ask you is 
what options do you have available to force change on these 
discriminatory policies as they currently exist? We understand 
and hope that Indian good faith is moving forward. But what 
options do you have to enforce this? And, if you could, 
elaborate on those.
    Ambassador FROMAN. Well, this is an issue of great concern. 
We have had great concern about the innovation environment in 
India, the issues around the patent rules, as well as around 
compulsory licensing. And we have had a series of dialogs with 
the government of India, including at the highest levels 
between--with the prime minister about issues around 
intellectual property rights, and how best to achieve their 
objective of assuring access to medicines--it is an objective 
we all share--without compromising or undermining the patent 
system.
    Clearly, right now, they are in the midst of an election, 
and we look forward to re-engaging with them as the election is 
completed and the government is put in place. And this will be 
one of the chief issues on the agenda.
    Ultimately, there are mechanisms for bringing dispute 
settlement cases, but we are trying to work to--in a 
constructive way with India to focus on the array of issues 
that they can deal with on access to medicines short of taking 
actions on patents or compulsory licenses that we think are 
inappropriate.
    For example, India has certain tariffs on imported 
medicines. And so, if you want to encourage the access to 
affordable medicines, one thing any country can do is drop its 
tariffs. And that would help access to medicines. There are a 
series of other issues around distribution. And that is the 
kind of dialog we hope to have with the new government of 
India.
    Mr. LARSON. Well, I know it is a major concern to a number 
of pharmaceutical companies in the State of Connecticut and 
across the country.
    I also want to commend you and the administration for 
continued conversations with the AFL-CIO and its president, 
Rich Trumka. How would you characterize your conversations with 
Mr. Trumka?
    Ambassador FROMAN. Well, we have a good relationship, I 
think, with a number of labor leaders. And I have spent a great 
deal of time with them and their representatives over the last 
few years on several of the issues we have been discussing here 
today: TPP, TTIP, other labor rights issues and other 
agreements, other enforcement issues.
    And we have taken their input very seriously into our 
negotiating positions, not just on the labor chapter, but on 
issues around state-owned enterprises, or rules of origin, and 
various market access issues. So, they have been a good partner 
at the table in helping us shape our negotiating proposals. 
Again, not that we will necessarily agree on everything, and 
not that any stakeholder group is likely to get 100 percent of 
what they want, 100 percent of the chapters, 100 percent of the 
time. This is a negotiation. But we work very closely with 
them. We share a number of their concerns. And we look forward 
to continuing that work on TPP, on TTIP, and across our trade 
agenda.
    Mr. LARSON. Thank you, Ambassador.
    Chairman CAMP. Thank you. We will now go two to one. Mr. 
Smith.
    Mr. SMITH. Thank you, Mr. Chairman, and thank you, 
Ambassador, for your diligence in the efforts to increase 
exports for American producers.
    In addition to facing high tariffs, we know that 
competitive American industries such as agriculture are facing, 
as mentioned before, non-tariff trade barriers, which can only 
be addressed by establishing the enforceable and science-based 
standards and trading rules. Representing thousands of Nebraska 
producers, I certainly pay close attention to the policies 
impacting agriculture technology. You know, thanks to modern 
practices and biotechnology, we are saving water and increasing 
yields, and there is a lot of great news about this. And yet, 
unpredictable and unscientific sanitary and phytosanitary 
hurdles are blocking entry into these key markets, and many of 
my colleagues have mentioned that already this morning.
    But very specifically, considering crops produced through 
biotechnology account for about 30 percent of our U.S. 
exports--agriculture exports, that is--the biotech approval 
processes should be a top policy priority, I would hope, for 
this administration. Could you provide an update on what USTR 
is doing to ensure that such barriers are receiving the proper 
attention?
    And also, in recent years we know that China--obviously, a 
key market for U.S. ag exports--has stopped numerous shipments 
without justifiable cause or proper notice. And would you 
support USTR's raising this issue within the 2014 U.S.-China 
Joint Commission on Commerce and Trade process?
    Ambassador FROMAN. Yes. Well, thank you for that question.
    First of all, on the last point with regard to China and 
biotechnology products, in fact, we were in China in December--
Secretary Pritzker, Secretary Vilsack, and myself--for a 
meeting of the JCCT, and this was very much front and center on 
the agenda, both the issues of stopping certain exports, but 
also their process for approving biotechnology products, and 
assuring that they have a process that is consistent with the 
best science, and that it makes decisions on a timely and 
appropriate basis.
    This issue is, obviously, a key issues with our 
negotiations with the European Union. And there, of course, we 
have won a WTO case. There, there has been a European Court of 
Justice case about the importance of the EU maintaining its own 
timetable for approving new products, and biotechnology 
products, and this is a key part of our negotiation.
    So, it is very much on the agenda, and the Europeans 
understand the importance to us, and we are working to find 
ways that we can make progress on this, consistent with each 
party's interests.
    Mr. SMITH. Okay, thank you. And, also, we have heard 
several references here this morning of the concern about 
Japan. And, perhaps even more specifically, the production of 
U.S. pork, perhaps, and its treatment, specifically.
    But also, I would like to raise concerns about Canada and 
not opening to dairy, poultry, and egg markets, and not opening 
their markets. Could you perhaps speak to that, and how we 
should move forward with that, or, you know, perhaps--I don't 
expect you to share absolutely strategy, but certainly how 
should we move forward?
    Ambassador FROMAN. Yes. On both, with Japan we continue to 
press on those issues, as we talked about.
    And you are absolutely right on Canada. It is the only 
country in TPP that has not yet given us a market access offer 
on issues like--on agricultural issues like dairy and poultry. 
And we are pressing them to do so, because it is a very--those 
are important priorities for us. We are addressing their 
priorities in a number of ways, and we want them to come to the 
table, as part of an overall package.
    Mr. SMITH. Right. Well, and I appreciate what you mentioned 
earlier, that, you know, a comprehensive trade agreement--you 
know, needs to open things up. And I appreciate your efforts, 
and I look forward to working together on behalf of U.S. 
producers and, actually, U.S. consumers, as well.
    Thank you. I yield back.
    Chairman CAMP. Thank you. Mr. Schock.
    Mr. SCHOCK. Thank you, Mr. Chairman. Welcome, Ambassador 
Froman. First, let me thank you for your work on trade. I think 
it is one of the bright spots of the last couple of years in a 
down economy, both here, domestically, as well internationally. 
I hate to think of what our economy might be doing in 
manufacturing and agriculture if we did not have Panama, 
Colombia, and South Korea now fully implemented.
    A couple quick questions. One is dealing with the U.S. 
biopharmaceutical industry. I have raised this before. It is a 
very important issue to me, because not only do they support 3 
million jobs in the U.S., but 200,000 in my home state. And I 
am just curious whether the Administration--whether you 
particularly are supportive of ensuring that the 12-year 
guarantee for IP protection for U.S. biologics is included in 
whatever we negotiate with TPP.
    Ambassador FROMAN. Well, thank you. This is one of the most 
challenging outstanding issues in TPP. When you look around the 
table, five countries have 0 years of protection. Four 
countries have 5 years of protection. Two countries have 8 
years of protection. And we have 12 years of protection.
    So, consistent with our standard practice, of course, 12 
years is in U.S. law, and so that has been our proposal that we 
have put on the table in the negotiation. And we are now in the 
midst of that negotiation to determine where we can reach a 
consensus, in terms of protection for biologics. And we are 
working to underscore the importance of data protection for 
biologics, how it is different than small molecules, and the 
various issues that go into the determination of how much data 
protection there should be.
    Mr. SCHOCK. Great. Well, I have great confidence in your 
persuasive ability. Because, obviously, those three million 
jobs are in the United States for precisely that reason, 
because we have such a high standard, not only in terms of the 
length of time of IP protection, but also the rule of law, 
which I know in some of these countries is not so predictable, 
particularly in the courts.
    My second question is with regards to the U.S. film 
industry, which obviously, key to them recouping their costs is 
the ability to protect their intellectual property. 
Specifically the use of camcorder recording in foreign theaters 
is one of the major ways that people steal their products. We 
were able to get Canada, as you know, to outlaw this practice, 
which basically eliminated the use of camcorder recording in 
that country. How important is this on the trade agenda as we 
look at TPP? These countries tend to be some of the more rabid 
abusers in IP violations, particularly with the film industry. 
Is this something that we can accomplish as a part of TPP?
    Ambassador FROMAN. Well, this is very much part of our 
proposal with TPP, is to have countries take action to deter 
camcording as one of our intellectual property rights 
proposals. We are working with the other countries on that now. 
There is, again, a range of perspectives on it, and we are 
optimistic that we will be able to achieve something meaningful 
in that area.
    Mr. SCHOCK. So they seem to understand that that is 
important and achievable?
    Ambassador FROMAN. We have underscored that for them.
    Mr. SCHOCK. Okay, great. Finally, I know others have talked 
about the importance of TPA and what is happening in Russia. 
What about the WTO? Russia, obviously, enjoys participation in 
WTO. Obviously, the Congress, I think, in a bipartisan way, 
supports the administration's effort to put the squeeze on 
Russia. You know, the President nor the public, I think, wants 
to use military force over there. But should we be using more 
economic tools, particularly looking at their participation in 
WTO? What is your thought on that?
    Ambassador FROMAN. Well, their accession to the WTO helped 
bring them into a rules-based trading system, and also gave us 
the tools to be able to enforce those rules against Russia when 
they violate them. And so we view their participation in WTO as 
giving us a tool to be able to take action there.
    Stepping back from that, obviously, economic issues are 
very much on the table, in light of Russia's recent actions. 
The President, the administration, has taken a series of 
actions with regard to economic sanctions, as have our allies. 
We have made clear there has got to be a price paid for the 
actions they have taken to date, and if they maintain the same 
path that they are on going forward, that those prices--that 
the sanctions will increase.
    And so, economics is very much part of that. And from 
USTR's point of view, you know, we have ceased all of our 
bilateral engagement with them on economic issues, on efforts 
that we had underway to improve our trade and investment 
relationship, including the negotiation of a bilateral 
investment treaty.
    Mr. SCHOCK. Okay, thank you.
    Chairman CAMP. Thank you. Mr. Blumenauer.
    Mr. BLUMENAUER. Thank you, Mr. Chairman. Ambassador, thank 
you again for joining us. It has been very helpful, having 
conversations. You have been generous to meet in private, small 
groups, and yet another Committee hearing. It is, I think, 
important to build this record.
    I will submit to you a more technical question that deals 
with rules of origin for titanium products. It makes a great 
deal of difference, I think, in terms of having a preference 
for melting, not milling, and I don't expect you to be deeply 
versed in this right now. But I would appreciate attention to 
it, because it makes a big difference protecting us from unfair 
competition from state-owned industries in China and Russia, 
for instance, and protecting that capacity in the United 
States.
    There are 13 Members of this Committee that co-signed a 
letter that Congressman Schock and I developed. I have 
legislation with Ms. Jenkins dealing with footwear. We have had 
some conversations before that this is an industry where less 
than 1 percent of the product is manufactured in the United 
States. The value chain is concentrated not just in my region 
of the Pacific Northwest, but around the country. That is where 
we have an opportunity to make some real advantages in the--
going forward. Yet they suffer some of the highest tariff 
rates, which retards ability to--for capital formation in this 
country to create jobs or move them here. And it is a tax on 
the American consumer that is much higher as it moves through 
the value chain than just the burden on the individual 
companies.
    Now, I know this is an area that you have been doing a lot 
of work. Vietnam, for instance, is troublesome in some 
respects, in terms of some of their practices, but real 
opportunities to change some of their behaviors. I wonder if 
you could speak briefly to the progress that we are making to 
reduce these punitive tariffs and the tax on consumers, and 
maybe spark some innovation here.
    Ambassador FROMAN. Well, thank you, Mr. Blumenauer. This is 
an issue--footwear is an issue of sensitivity both in the U.S. 
and among our trading partners. It is a key issue in TPP. We 
have been working with domestic stakeholders, both the domestic 
producers that exist, but also the importers, including some 
from your region of the country, to develop an approach that 
will achieve that right balance of helping to ensure that our 
domestic producers can continue to compete, but also make sure 
that we are able to bring in good, high-quality product for the 
American consumers.
    And so, it is one of the outstanding areas in our 
negotiations with our trading partners, and one that we are in 
continuous discussion, including as recently as this week, with 
our stakeholders as we formulate our position.
    Mr. BLUMENAUER. As I mentioned, there are 13 Members of the 
Committee that co-signed the letter, dozens of other Members. 
We think there is some support in Congress for efforts to try 
and extract more value for the American consumer, and these 
American companies.
    I appreciated your clarification to a front page story in 
the New York Times some weeks ago that talked about the United 
States capitulating on environmental issues. I appreciate your 
clarification on that, that--including in this hearing, that it 
remains a high priority for you, for the administration, to be 
able to make progress.
    I do identify a little bit, however, with the comment from 
my friend from Texas, Mr. Doggett, about our enforcement 
actions. As somebody who worked on those provisions, for 
example, with the free trade agreement, where we come down on 
enforcement, I think, would make a big difference. Anything you 
can help to clarify that, either here or going forward, would 
make--I think give more dimension and traction to the 
representations on what you are trying to do, environmentally.
    Ambassador FROMAN. Well, thank you for that, and I am sorry 
I didn't have a chance to answer Mr. Doggett's question while 
he was here. But let me simply say that I think this 
Administration has demonstrated a very thorough and robust 
commitment to trade enforcement. We have set up this 
Interagency Trade Enforcement Center with assets from around 
the government that have allowed us to bring better, stronger, 
and more complex cases.
    With regard to the particular issues that were raised, with 
regard to Peru, for example, and the forestry annex, we have 
been able now, with the resources that USTR has been given in 
the recent budget, to re-engage with Peru on monitoring that 
agreement. And we are now heading toward having a registry in 
Peru for the logging, to ensure that it meets the standards of 
the annex.
    And on labor, we have been meeting with the Guatemalans on 
the case that has been brought against Guatemala, the first-
ever case brought against a country on labor issues. And we do 
the same with Bangladesh on GSP, given their labor issues. So 
we use our enforcement tools thoroughly to make sure those 
labor and environmental provisions are fully enforced.
    Chairman CAMP. All right, thank you.
    Mr. BLUMENAUER. Thank you very much.
    Chairman CAMP. Ms. Jenkins.
    Mr. BLUMENAUER. Thank you, Mr. Chairman.
    Ms. JENKINS. Thank you, Mr. Chairman, and thank you for 
holding this important hearing. Thank you, Ambassador, for 
being here, and for all of your good work. Many of us have 
serious concerns about our economic relationship with China. 
One area of great concern to my constituents in Kansas is 
China's unjustified barriers to U.S. agriculture. These 
barriers ignore international standards, they have no basis in 
science, and they raise serious questions about whether China 
is complying with its WTO obligations.
    Most specifically, the World Organization for Animal Health 
recognized last year that all cuts of U.S. beef are safe, yet 
China continues to ban U.S. beef imports. And I know 
Congressman Smith touched on this, but the first thing I wanted 
to ask is that you address what USTR is doing to ensure that 
China's regulations on agriculture products--beef, in 
particular--comply with its WTO obligations and are otherwise 
based on international standards and sound science.
    Ambassador FROMAN. Well, thank you. And that is a high 
priority in our relationship with China. Ever since the U.S. 
was found to be a negligible risk country for BSE last year, it 
has been able--we have been able to go back to trading partners 
and open up markets for U.S. beef exports.
    And, as I mentioned earlier, Secretary Vilsack was with 
Secretary Pritzker and myself in China in December, and beef 
was very much on the agenda. And we worked together with our 
Chinese counterparts to reach an agreement about opening up 
their market over the course of this year. And Secretary 
Vilsack is following up on that in a series of technical 
discussions between USDA and its Chinese counterparts.
    But we also need to use all the tools at our disposal. And 
here is an example where we brought a WTO case against China 
for their exclusion of certain chicken parts, broiler parts. We 
have won that case in the WTO, and we will continue to bring 
cases on agriculture and other issues where we think parties 
have violated their standards.
    The underlying point you make, which is that we want to 
make sure SPS standards around the world, whether it is in 
China or Europe, are based on science, as ours are, is an 
absolutely critical and fundamental part of our trade policy.
    Ms. JENKINS. Excellent. Well, thank you. Second, my 
concerns with China aren't exclusive to agriculture, because 
there are many examples where dealing with China is a 
significant challenge. But we need to address these concerns 
without harming our own economy.
    Now, given the limited time and resources available to 
address the long list of China's barriers, how would you 
prioritize the various challenges U.S. companies face in China? 
And would legislation such as some of the currency bills that 
have been introduced affect our ability to deal with these 
other issues?
    Ambassador FROMAN. Well, we engage on a whole range of 
concerns with regard to China, whether it is market access 
obstacles and--or how--the concerns that they force the 
transfer of technology as a condition of doing business there, 
we have pushed back over the last couple years on their 
indigenous innovation policies that would have required our 
intellectual property to be transferred as a condition of doing 
business, or participating in government procurement.
    We are pushing for the legalization of software, of 
ensuring that trade secrets are protected. And, across the 
board, we are looking, both through our bilateral dialogue and 
through enforcement mechanisms to ensure that China upholds its 
WTO obligations.
    So these--the complex set of issues you say, both inside 
agriculture, but also outside agriculture, are absolutely 
critical to improving our trade and investment relationship 
with China. We have a lot of mechanisms to do this: the S&ED, 
the JCCT, our BIT negotiations, other engagement with China. 
And we are ensuring that we set priorities so that we are 
making sure we are addressing the most--the practices of 
greatest concern to American firms and American businesses.
    Ms. JENKINS. Okay. Thank you, Mr. Chairman. I yield back.
    Chairman CAMP. Thank you. Mr. Paulsen.
    Mr. PAULSEN. Thank you, Mr. Chairman. And, Ambassador 
Froman, let me just start by thanking you and your team for 
your accessibility, for your responsiveness, and for your 
engagement. It is very much appreciated in some challenging 
situations you have in communicating with my office, in 
particular.
    I want to follow up on what John Larson had mentioned 
earlier--the situation with India. You know, it was just last 
year we had 170 Members of Congress, on a bipartisan basis--and 
15 governors--who had asked the Administration to raise 
concerns with India's unfair trade practices at the highest 
levels of the Indian government. And the President has done 
that, you have done that, the Vice President, and the Secretary 
of State, on down the line.
    Now, since the inception of USTR's special 301 Report, 
India is one of the few countries to have been designated as a 
priority foreign country in the last 25 years. So India has now 
failed to make any meaningful progress, I would say, in 
addressing the long-standing concerns raised each year by your 
agency in that special 301 report.
    And, as there is a whole host now of market access and 
trade issues that significantly impede the ability of U.S. 
companies and businesses and investors to operate there, given 
the importance of the U.S. and India strategic relationship and 
India's pure growth potential, which you outlined in your 
opening testimony as a market for U.S. goods and services, I 
think all efforts need to be made to help overcome these 
challenges and our many difficult issues.
    However, the primary forum to help address some of these 
bilateral trade and investment issues seems to be the Trade 
Policy Forum. And USTR co-chairs that forum. It has not been 
held since 2010. When do you expect to hold the next Trade 
Policy Forum?
    Ambassador FROMAN. Well, thank you. First, I have had a 
series of meetings with my Indian counterparts since coming 
into this job, and we have stayed very closely in touch, 
including about how to make sure the Trade Policy Forum is an 
effective mechanism for addressing these issues.
    And so, when we met--back in September, I believe it was--
we laid out a work program for our staffs to work through 
outstanding issues in preparation for our Trade Policy Forum. 
And that work is ongoing. Now China is in the midst of an 
election season, and I think our--everyone's perspective is we 
should wait until they get past the election in order to re-
engage on that. But I am fully committed to re-invigorating the 
Trade Policy Forum. We just want to make sure that it is not 
just to have a meeting, but that it is a meeting that will help 
achieve results. And that is why I want to make sure it is 
adequately prepared.
    Mr. PAULSEN. So, the elections are coming up soon, and it 
sounds like you agree with being--staying on a positive 
trajectory that talks with India actually have to produce 
concrete results.
    Ambassador FROMAN. Absolutely.
    Mr. PAULSEN. Okay. Let me just switch topics real quick, 
Ambassador. Since Congress last debated TPA in 2002, one aspect 
of our economy and trade has dramatically changed, and that is 
the use of the Internet for both commerce and for personal use.
    You know, back in 2002, nobody knew anything about Google 
or Googling anything, or Facebook, or Twitter. And can you just 
talk a little bit, or explain a little bit about how our trade 
agreements in today's 21st century model can truly reflect the 
full balance of U.S. law regarding the Internet?
    Ambassador FROMAN. Well, thank you. I mean that is very 
much one of the areas of focus in TPP at the moment, because we 
want to make sure we take the lessons from the physical world 
and bring them into the digital world, consistent with the 
existing legislation in the U.S. So, we are pushing for the 
free flow of data, for example. We are pushing against 
localization requirements that servers have to be located in a 
country for a business to be able to serve that country.
    We also want to make sure that we are respecting privacy 
concerns, and that governments have the ability to regulate in 
a bona fide way in the interest of privacy, and those are also 
important objectives. So we take, as our touchstone, existing 
U.S. law, and we are working in that context to assure that the 
digital economy is very much reflected in this 21st century 
agreement.
    Mr. PAULSEN. Thank you, Mr. Chairman. I yield back.
    Chairman CAMP. Thank you. Mr. Kind.
    Mr. KIND. Thank you, Mr. Chairman. And thank you for 
holding this hearing. And, Mr. Chairman, I too want to share in 
the accolades directed towards you, with the leadership you 
have shown this Committee, and what you have meant to this 
Congress, and our friendship in particular. We are going to 
miss you. But we still have some work to do here.
    Chairman CAMP. Yes.
    Mr. KIND. Mr. Ambassador, thank you for being here. And I 
think if there has been a consistent message delivered from the 
Committee to you is one of gratitude, given your access and 
level of engagement, not only with Members of this committed, 
but Members of the Congress, and especially the new Democratic 
Coalition, of which I am leading. You have been before us on a 
number of occasions. In fact, so often that we are talking 
about making you an honorary Member, given our endless meetings 
with you. But that is going to be crucial as we do move 
forward, not only TPA authorization, but the TPP negotiations. 
Members need to have that access, that level of engagement, and 
you have been tireless in that effort, and I compliment you.
    In fact, just yesterday, Dr. Boustany and Mr. Reichert, 
myself, and Mr. Meeks had a chance to have breakfast with the 
TPP ambassadors at the Canadian Embassy. We were able to engage 
them directly about the market access issues that you have been 
working on, but have a diplomatically frank exchange. But you 
should also know that there was high praise from every one of 
them about the job that you are doing on our behalf. And that 
is always very good to hear.
    Here is one of the concerns that I have. I think it is 
important that we are at the table, that we are moving forward 
on a robust trade agenda. It is important not only for the 
economic growth for our Nation and the jobs that can come from 
it, but U.S. leadership, not only in the Pacific region, but 
globally, right now. I am afraid that, with further delay, as 
far as TPA is concerned, it may lead to further delay of a 
final TPP being negotiated. And the rest of the world is not 
sitting around, waiting for us to get our political act in 
order here. And there is a danger that TPP could turn into 
another Doha, which we are trying to avoid at all costs.
    I am just wondering if you are sensing that same type of 
concern, or if you are seeing significant progress being made 
that might elevate this and enable the Congress to finally 
start taking action, give you the tools that you ultimately 
need in order to reach the best agreement that we can get with 
the TPP nations.
    Ambassador FROMAN. Well, thank you. I mean I think, again, 
I think the only guarantee--and I will tell you what I tell our 
trading partners--the only guarantee of an agreement being 
approved by Congress is that we negotiate a good agreement. And 
we know what a good agreement is. We can know what that good 
agreement is through the expression of TPA and the expression 
of the negotiating objectives in TPA. We can also know it 
through our thorough consultation with Members of Congress, and 
with the stakeholders, and with the public, that we have a good 
sense of what is necessary.
    We each have our domestic processes that we need to go 
through. And ours is TPA, and our trading partners, their 
domestic processes, as well. We certainly don't want them to 
use the lack of TPA as an excuse for not coming to the table, 
and not concluding a high-standard, ambitious, comprehensive 
agreement as soon as possible. I think we can do that. I think 
we can work in parallel, both to conclude a high-standard TPP, 
as Congress considers trade promotion authority issues and 
builds bipartisan support for such an approach, and that is the 
path that we are on.
    Mr. KIND. My sense is--and I think you share this--is that 
those at the table now, the 12 nations negotiating, all of them 
are there because they want an agreement at the end of the day. 
They are not just playing games with it.
    But on another level of inquiry, under CAFTA we had some 
pretty innovative, capacity-building provisions in CAFTA. I am 
wondering if we are still using that as a model, or trying to 
elevate that in pursuit of TPP with developing nations. I am 
especially thinking about Vietnam and--
    Ambassador FROMAN. Absolutely.
    Mr. KIND [continuing]. What we are asking them to do to 
elevate their labor standards.
    Ambassador FROMAN. No, that is very much--and thank you for 
mentioning that--that is very much a part of what we are trying 
to do with Vietnam as they sign on to international labor 
standards. As we developed action plans, and work programs for 
them to be able to meet those standards, it is going to require 
technical assistance, whether it is from the ILO or from the 
solidarity center, or elsewhere, for them to be able to achieve 
those objectives. We are working closely with the State 
Department and USAID to assure that there will be resources 
available, so that they can fully implement their obligations 
under TPP.
    Mr. KIND. Good. Well, I would be happy to follow up with 
you in one of our future meetings on that.
    And, finally, a resource issues. I had a chance to meet 
with Ambassador Punke recently, talk about the ITA negotiations 
with China. I was somewhat alarmed to understand that he was 
there on our behalf, facing 16 Chinese negotiators across the 
table that tried to wear him thin, or wear him out. I wonder if 
we are giving you enough resources in order to pursue these 
negotiations and that we are not being undermanned in--
    Ambassador FROMAN. Well, we are a lean and mean 
organization at USTR. I think that is generally one of our 
strengths. I think, frankly, during sequester we got a little 
too lean, and we weren't able to fulfill all the 
responsibilities the way that we like to. We are working with 
our appropriators to assure that we have got the necessary 
resources, going forward.
    But I would put Ambassador Punke up against 16 Chinese 
counterparts any day. I think that is a pretty even match.
    Chairman CAMP. All right, thank you.
    Mr. KIND. Thank you.
    Chairman CAMP. Mr. Marchant
    Mr. MARCHANT. Thank you, Ambassador. As you know--global 
trade is very important to Texas. In fact, Texas leads all 
states in exports, and has for the last 12 years. And in my 
district is Dallas-Forth Worth International Airport, for which 
trade is very, very important. Yet there are people in my 
constituency that are very skeptical of TPA and these trade 
agreements. Can you give some assurances or give some examples 
of why this--these trade agreements would be very, very 
positive to Texas and to my constituents?
    Ambassador FROMAN. Well, you know your constituency well. 
My understanding that in Texas you are exporting about $8 
billion to Korea, and that is about a 54-percent increase over 
the last few years. And same is true on Colombia, 140-percent 
increase. Panama, 93-percent increase. You are seeing the 
benefits of these trade agreements directly in Texas as you see 
your exports grow. And that is certainly our goal with TPP and 
TTIP, is to see that kind of export growth come with the 
opening of these markets.
    Mr. MARCHANT. To complement that, just recently American 
Airlines just announced it is going to start a non-stop flight 
from Dallas to Shanghai. So recently, the Chinese government, 
as you know, announced that it was going to make Shanghai an 
example, a free market example. Can you talk to us a little bit 
about that experiment, and how important that is, and how that 
will dovetail into your negotiations with them?
    Ambassador FROMAN. It is an interesting question. This is 
the Shanghai Free Trade Zone that they announced last year, and 
we are monitoring that very closely to see what it is they 
intend to do, and how they intend to use it. And that, together 
with the outcomes of the Third Plenum in November, where they 
laid out a reform program, there is a lot of positive signals 
in the Third Plenum program and in the Shanghai Free Trade Zone 
proposal about where China wants to take its economy, how it 
wants to open its economy, liberalize it, have it be more 
market-oriented, take the government out of the process of 
approving every investment.
    One way we are following up on that is through our BIT 
negotiations, our Bilateral Investment Treaty negotiations. 
Because that gives us an opportunity to put to the test 
whether, when China says it wants to move toward a so-called 
negative list, meaning companies can invest and do business in 
China everywhere and anywhere in any sector unless it is 
explicitly prohibited, to see whether--how far they are willing 
to go in that regard, how far they are willing to take the 
Third Plenum outcomes, or the sentiment behind the Shanghai 
Free Trade Zone and drive it through reform in their economy. 
We are in the midst of those discussions, and those will be 
continuing, I think, for several more months and longer. But 
that gives us an opportunity to put to the test whether some of 
those expressions of reform are being translated into reality.
    Mr. MARCHANT. Thank you. Yield back.
    Chairman CAMP. Mr. Pascrell.
    Mr. PASCRELL. Thank you, Mr. Chairman. Mr. Ambassador, you 
have a very, very difficult job. You inherited a terrible 
situation with trade imbalances. I have listened to the smoke 
and mirror games of presidents Democrat and Republican on trade 
issues. American people are fed up because they have seen the 
results, which many times have not helped us at all in the long 
run, and have not helped foreign countries.
    So, our policy, I think, is at a crossroads. We have come a 
long way since the one-sided deals of the nineties and 2000s, 
and--which helped cripple our country's industrial base. We 
want to build that base, and I have heard you say that 
yourself. We want to build manufacturing in this country, but 
not that--the sacrifice of whether it is services or anything 
else.
    When Democrats took the majority, we fought to include real 
protections for labor rights and the environment, and we were 
moving in the right direction. Thanks to the involvement and 
the investment of the Congress and the United States and the 
administration listening at the time. I think that this is 
important, and we need an investment. I agree with Chairman--
Ranking Member Levin when he said we need an intense 
involvement by the Congress, not after, but before. We have had 
serious consequences when that did not happen in the past, and 
it has had repercussions to now, today.
    What we are seeing in this difficult Trans-Pacific 
Partnership negotiation has me fearing we could slip back into 
the old ways of doing business. I realize that your job is 
difficult. You inherited negotiating with a lot of countries 
that don't share our values and commitment to high standards to 
labor and environment.
    And we saw a break-through in the Peruvian trade deal. That 
was, I think, a pivotal point for the Congress of the United 
States, to have enforcement rules, to have countries agree 
before the deal is signed, sealed, and delivered, that they are 
going to make some changes and do that in a very transparent 
way. Countries should be our allies in that fight are nowhere 
to be found many times, Mr. Ambassador. I urge you to stay firm 
and not go backward.
    Mr. Ambassador, I am a co-chair of the House Textile 
Caucus, what is left of the textile industry in the United 
States of America, which we have seen dwindle away in the last 
40 years. I would like to thank you for your commitment to the 
Yarn Forward rule of origin for textiles and apparel, which, as 
you know, is of critical importance to the textile industry in 
this country.
    My question today is on market access for the most 
sensitive textile products manufactured here in the United 
States. Can you assure the Members of this Committee that your 
negotiators will seek the longest duty phase-out possible for 
the most sensitive textile items? That is a pretty direct 
question. We don't need a glossary of discussions here. Would 
you give me an answer?
    Ambassador FROMAN. Well, we are working with--very closely 
with textile and apparel stakeholders to make sure we have a 
full understanding of what the most sensitive products are, and 
using the tools that you mentioned--the Yarn Forward, the short 
supply list, and staging issues--we are making sure that we 
strike that right balance between assuring protection for our 
domestic producers, as appropriate, and also allowing the 
importers of apparel----
    Mr. PASCRELL. And as you heard before----
    Ambassador FROMAN [continuing]. To have access to our----
    Mr. PASCRELL [continuing]. Folks are concerned about 
Vietnam's wanting immediate access. And I think that this is a 
serious problem. Do you think that that is a hurdle we can get 
around, get over, et cetera?
    Ambassador FROMAN. Well, that is very much part of the 
current negotiation.
    Mr. PASCRELL. But what do you think?
    Ambassador FROMAN. Well, we are in the midst of negotiating 
that with our trading partners. So I can't tell you at this 
point what the outcome is----
    Mr. PASCRELL. Well, are you making a commitment today to 
this Committee that you are going to do what the question 
entails?
    Ambassador FROMAN. We are firmly committed to assuring that 
we have an outcome on textiles and apparel, as well as other 
products, frankly, that support the maximum number of American 
jobs in this country, and take into account the sensitivities 
of some of our key sectors.
    Mr. PASCRELL. I wanted to highlight a concern about 
intellectual property, those decisions in Canada in recent 
years that go against our neighbors' international commitments. 
The Canadian courts have ruled that certain pharmaceutical 
patents, including many belonging to companies in my home state 
of New Jersey, invalid due to what I believe to be an 
inappropriate interpretation of international patent standards. 
This isn't an issue increasing access to medicines in 
developing countries. Canada is wealthy, it is an 
industrialized nation. This policy is designed to benefit the 
manufacturers at the expense of our own--Mr. Ambassador, we do 
not need a corporate draft for our trade policies.
    Chairman CAMP. All right. Time has expired. Do you want to 
respond briefly?
    Ambassador FROMAN. I would simply say on the Canadian 
patent issue, this is something we are monitoring very closely. 
It is now the subject of litigation, both in the Canadian 
courts and in an investor state case. But it is something we 
are monitoring very closely as part of TPP, as well.
    Chairman CAMP. Thank you. Mrs. Black is recognized.
    Mrs. BLACK. Thank you, Mr. Chairman, and thank you, 
Ambassador, for being here. This is such an important 
conversation that we are having here today.
    I want to go to the issue of intellectual property, which I 
continue to ask about, because I hear so much about that in my 
own district about our job creators there that do business 
overseas, and how they believe, specifically in the Asian 
countries, that there is not the respect for the intellectual 
properties.
    So, TPP must contain strong IPR protections to be an 
effective and comprehensive trade agreement. Not only are these 
protections needed to support millions of jobs here in the 
United States, and a significant portion of our exports, but 
they are also encouraging American innovation and investment. 
The full spectrum of intellectual property rights must be 
covered, including patents, copyrights, and trademarks, and all 
types of products and services must be adequately addressed, 
including pharmaceuticals.
    How will USTR ensure that TPP will contain strong and 
effective IPR protections similar to that found in our U.S. 
law?
    Ambassador FROMAN. Well, that is certainly our objective in 
this negotiation. And as I mentioned in my opening remarks, we 
have got millions of Americans whose jobs depend on the 
innovation economy, on creativity, on our intellectual property 
rights. And whether it is in the copyright/trademark side of 
things, or in the pharmaceutical side of the ledger, we are 
working to assure the appropriate level of intellectual 
property rights, and very much based on concepts in U.S. law. 
So strong copyright protection, also limitations and exceptions 
consistent with U.S. practice. And, on the pharmaceutical side, 
consistent with the May 10th agreement, assuring incentives for 
innovation, while at the same time access to medicines by the 
poor and developing countries.
    Mrs. BLACK. The other issue also right along those lines is 
the issue of cross-border data flows, which are critical, not 
just to service companies, but also the globalized companies in 
any sector. So respecting the differences of those data privacy 
approaches from country to country, how can we ensure that 
there is a robust protection of those cross-border data flows?
    Ambassador FROMAN. Well, that is a central part of our new 
approach on the digital economy in TPP, to try and reach 
agreement around disciplines on regulating the flow of data, 
and making sure that there can be the free flow of data, also 
dealing with issues like the localization of servers, so that 
businesses aren't required to have servers in a particular 
country in order to serve that market. So this is very much--
when we talk about updating our trade agreements for the 21st 
century and bringing new issues like the emergence of the 
digital economy into those trade agreements, this is precisely 
what we are focused on.
    Mrs. BLACK. Thank you, Mr. Chairman, and I yield back.
    Ambassador FROMAN. Thank you.
    Chairman CAMP. Thank you. Mr. Davis.
    Mr. DAVIS. Thank you, Mr. Chairman. And I, too, want to 
commend you for your service to the nation, and especially for 
the outstanding leadership you have provided as chairman of 
this Committee in terms of the way that you facilitated its 
work. I trust that when you leave Congress you will always 
relish the memory of that.
    And thank you, Mr. Ambassador, for being here. And to you 
and your staff for the great work that you do. Mr. Ambassador, 
I come from Chicago, Illinois, which has been known as the 
candy capital of the nation. Thousands of jobs in Chicago are 
directly related to the availability of sugar at a competitive 
price. According to the Commerce Department, to date in this 
country, we have already lost 127,000 sugar-using jobs since 
1997 because of the trade-distorting sugar program.
    Over the last 5 years, confectioners, bakers, candy makers, 
and other manufacturers have suffered through the highest sugar 
prices anyone can remember, all due to a repressive sugar 
policy. Now that those high prices have brought on greater 
sugar production in both Mexico and the U.S., and a temporary 
sugar surplus, big sugar has decided to use more government 
action to eliminate competition.
    Last Friday, sugar processors filed anti-dumping and 
countervailing duty cases against the importation of Mexican 
sugar allowed under the North American Free Trade Agreement. 
Mr. Ambassador, can we count on you to oppose any effort to 
restrict access to adequate supplies of sugar from Mexico, or 
anywhere else, that are needed to preserve good manufacturing 
jobs in the confectionary industries in Chicago and throughout 
the nation?
    Ambassador FROMAN. Well, the anti-dumping and 
countervailing duty case that you mentioned is the province of 
the Commerce Department and the ITC. It is actually a quasi-
adjudicatory process in which the USTR or any other agency is 
involved. It is being dealt with in the technical way that 
those two agencies deal with it.
    Sugar is obviously a very sensitive issue in trade 
negotiations, always has been. And we are consulting very 
closely with stakeholders, you know, on the issues around 
sugar. But we are not going to do anything through these trade 
agreements that will jeopardize or undermine the sugar program.
    Mr. DAVIS. In your view, does this dumping complaint help 
or hurt our bilateral trading relationship with Mexico?
    Ambassador FROMAN. Well, you know, trade remedies--Congress 
created trade remedies so that industry would have the ability 
to bring these cases when they thought there was dumping and 
countervailing duties, and it is brought by the companies 
themselves, or the industry themselves, not by the government. 
It is certainly something that the Mexican government and the 
Mexican stakeholders care a lot about, but it is the province 
of our industry, any industry, whether it is sugar or steel or 
any other industry, to avail themselves of the trade remedies 
that Congress has created.
    Mr. DAVIS. As you have indicated, there is a long history 
of trade disputes involving sugar and sweetener trade between 
the U.S. and Mexico. In the past, Mexico has placed 
restrictions on American exports of high fructose corn syrup. 
Do you share my concern that corn farmers in Illinois and other 
states could get caught up in another cross-border trade 
dispute that is not their fault, but is the result of the 
market-distorting sugar subsidies?
    Ambassador FROMAN. Well, I certainly hope we could avoid 
that situation.
    Mr. DAVIS. Well, we thank you very much, and I thank you 
for your work.
    And, Mr. Chairman, I yield back.
    Chairman CAMP. Thank you. Mr. Young.
    Mr. YOUNG. Mr. Ambassador, thank you so much for being here 
today. Really do appreciate it. I will begin by noting my 
colleague, Mr. Griffin of Arkansas, was called away to the 
floor, and he just asked that I convey to you he will be 
submitting a letter for your consideration pertaining to TPP 
and Japan's treatment of rice, also pertaining to dumping of 
steel rebar from Turkey and Mexico. So he will look forward to 
your responses there.
    Mr. Ambassador, I recently, working with several of my 
colleagues, helped launch a caucus related to TTIP. And this is 
a very important issue, and we hope we can consummate this free 
trade agreement in coming years between the U.S. and EU. Were 
we to do so, it is projected that exports from my home state of 
Indiana would increase by roughly 33 percent, and there would 
be a net increase in employment of up to 13,780 jobs.
    The largest category of exports that will benefit from this 
agreement, we estimate, will be pharmaceuticals. So, of course, 
the intellectual property rights protections that we have heard 
about here today are very important to that industry, as we 
work on this agreement.
    From your perspective, what barriers for IPR-intensive 
trade are most significant as we look at the U.S. and EU 
negotiations? Perhaps you could cite areas where there could be 
some convergence and other areas where harmonization might not 
be possible.
    Ambassador FROMAN. You know, I think the--one thing that 
categorizes--characterizes the U.S.-EU relationship is that 
both of us have strong intellectual property rights regimes. 
And so we start from a fairly common perspective in that 
regard. And, obviously, our innovative and creative industries 
will benefit from that perspective, and we are going to try to 
work together through TTIP, the U.S. and the EU, to promote 
strong intellectual property rights protections elsewhere 
around the world, as well.
    As part of TTIP, we are working to bring our regulatory 
systems closer together, or to bridge divergences in our 
regulatory systems without reducing, undermining, lowering our 
health, safety, and environmental standards. Neither one of us 
wants to lower our standards. The President spoke quite 
eloquently on this in Brussels last week. And so this is not 
about deregulation. It is about taking two well-regulated 
markets, but markets that are regulated in slightly different 
ways--and those differences create trade barriers--and seeing 
whether we can bridge those trade barriers by further 
cooperation on the regulatory side. And our FDA is working 
closely with the EMA in Europe to determine what areas of 
cooperation may allow for more interaction in pharmaceuticals 
and medical devices.
    Mr. YOUNG. So my sense is, based on your response, which I 
appreciate, is that we are still teasing out some of those 
areas, the thornier areas, the areas of common agreement, and 
so forth. So we will look forward to staying in touch in that 
regard.
    With respect to AGOA, it is essentially a development 
program designed to benefit the lesser-developed countries of 
Africa, that expires in September of 2015. And we want to make 
sure this reauthorization occurs in a way that improves upon, 
ideally, the existing program. And I know that USTR has 
requested several studies from the ITC pertaining to the 
program and its effectiveness and operation, and so forth. This 
Committee has requested a separate study from GAO. Can we agree 
to share information so that we can work together to improve 
this program?
    Ambassador FROMAN. We certainly want to work closely with 
this Committee and others in Congress on this issue. We 
launched a full review of AGOA last August, precisely to do 
what you have laid out: Assess what has worked well, what has 
worked less well, what has changed in the African economies, 
what has changed in their relationships with their trading 
partners. And, as we seek the seamless renewal of AGOA next 
year, what needs to be done to update it to make sure it is 
having maximum impact along the lines that it was originally 
designed. So we very much look forward to working with you on 
that.
    Mr. YOUNG. Thank you. Finally, I would just build upon 
Representative Pascrell's comments pertaining to intellectual 
property protection as it relates to Canada, particularly 
important to the pharmaceutical industry. And you will be 
receiving a letter from Representative Pascrell and myself, 
along with several other Members, pertaining to this issue and 
elevating to Canada special 301 priority watch list in 2014 
because of Canada's lack of adequate and effective intellectual 
property right protection.
    So, we will look forward to getting your response on that. 
I appreciate the dialog today. And thank you again for your 
service.
    Ambassador FROMAN. Thank you.
    Chairman CAMP. Thank you. Ms. Sanchez.
    Ms. SANCHEZ. Thank you, Mr. Chairman, and I would like to 
begin by adding my voice to those who will wish you well.
    Chairman CAMP. Thank you.
    Ms. SANCHEZ. And at the risk of my husband taking umbrage, 
I will say that, like all good men in my life, you are leaving 
too soon. And while I say that tongue in cheek, your leadership 
will be missed.
    Ambassador Froman, I want to thank you for joining us 
today. I have two--I have many questions I would love to ask, 
but I have two that I would like to get to, so I will jump 
right in.
    As you know, the United States is the world's largest 
creator, producer, and exporter of copyrighted materials. And 
jobs that support industries that are innovative typically are 
the kinds of jobs that provide benefits to workers and allow 
somebody to support a family off of the wages from those jobs 
in innovation. So I think it is incredibly important to not 
just think about trade generally, but to be very specific about 
making sure that we protect and try to grow jobs in the 
innovation sector, because they typically do also include 
manufacturing jobs with them.
    Being from Southern California, I am sure you can 
appreciate that the livelihoods of many Southern Californians 
are directly impacted when there is a lack of respect for U.S. 
domestic industries and intellectual property. Some of my 
colleagues have mentioned Canada and India, in particular. And 
I know that the administration's goal has been to achieve 
``21st century agreements,'' but the size and the scope of our 
pending agreements is what concerns me.
    As members of Congress, we spend a lot of time--often years 
and years--crafting Federal legislation to try to achieve that 
goal. And my concern is that in trade agreements like TPP the 
work that has been done to pass these laws could be undermined 
if we don't include some kind of incentives and enforcement 
mechanisms for making sure that we are incorporating standards 
of U.S. law in those trade agreements.
    In that same vein, criminal enterprises enable infringement 
of U.S. intellectual property, which also further impacts both 
U.S. and global marketplaces and our workers. So I think you 
are in a pretty unique position to try to help address that 
particular problem by fostering legitimate online commerce.
    So, I am just curious. How are you going to ensure that 
these 21st century agreements reflect U.S. law for all 
industries, and ensure that those who are intentionally 
enabling infringement are held liable for their actions?
    Ambassador FROMAN. Well, first of all, I couldn't agree 
with you more about the significance of intellectual property 
and protecting our creative industries. And not just--I was in 
Los Angeles several months ago--not just for the actors and 
directors who may participate in this, but for the unionized 
carpenters and the engineers who are working on the sets. And 
it is a whole ecosystem there that--where we want to make sure 
that they are getting the benefits of their labor, and that 
they are earning the benefits of their labor.
    And that is what we are trying to do in TPP on our--in our 
intellectual property efforts on copyright, on camcording, on 
making sure that piracy is dealt with, that there are effective 
enforcement mechanisms. USTR, we have a process called the 
Notorious Markets Process, where we list websites that are 
notorious for selling pirated material and get countries to 
close them down, or get the websites themselves to drop the 
offending material, the pirated material. And so that is 
something that we work on, both in our negotiations and in our 
enforcement efforts. And it is a high priority for us.
    Ms. SANCHEZ. Thank you. And then, switching gears really 
quickly--and if we run out of time I will just ask for your 
response in writing--but you testified before this Committee 
last year that the administration will continue to ensure that 
the Jones Act is protected under our trade agreements. And 
recently I heard reports that the European Union has put forth 
a draft proposal that would try to undermine the Jones Act. So 
I am just looking for some reassurance from you that nothing 
has changed with respect to the commitment that you made to the 
Committee, and that you are going to continue to ensure that 
the Jones Act or other programs to promote U.S. flag shipping 
are not going to be repealed or diluted in future trade 
agreements.
    Ambassador FROMAN. There is nothing we are going to do in a 
trade agreement that is going to repeal or undermine a U.S. 
law. Europeans have a lot of priorities in these negotiations, 
and we have a lot of priorities, as well. And that is what the 
negotiation is for, is that we work our way through these 
issues and understand each other's sensitivities, and how best 
to address the concerns of each in the context of an overall 
comprehensive agreement.
    Ms. SANCHEZ. Thank you. Thank you so much for your time 
and----
    Chairman CAMP. All right, thank you. Mr. Reed.
    Mr. REED. Thank you, Mr. Chairman. And, Mr. Ambassador, 
thank you. We are down to the end. And I appreciate--we have 
talked, we have met. And, as your predecessor, Ron Kirk also, 
you do an outstanding job, and I appreciate the work you do in 
regards to this issue, and I enjoy working with you.
    And I wanted to relate to you that a large employer from my 
district informed me that you did a tremendous amount of good 
work in the ITA agreement, Corning, Incorporated. I come from 
Corning, New York, and I just wanted you to know that we 
appreciate the work in that arena. So kudos to you.
    Last week I was at a hearing with the Steel Caucus. And I 
also co-chair the U.S. Manufacturing Caucus here in DC. And it 
was brought to our attention repeatedly by many of the Member 
companies there--Nucor Steel is a constituent, large employer 
in my district, also. They have a facility in Chemung County. 
U.S. Steel was there. ArcelorMittal was there. And Mr. Griffin 
is, I guess, going to send a follow-up letter to you.
    But I wanted to just stress to you or relate to you the 
theme I heard in the Steel Caucus is that there is a real 
threat from the dumping of steel into the U.S. market. I wanted 
to see what you thought--especially in the Turkey-Mexico arena. 
Wanted to see what you thought about their concern that that is 
going on. And is there anything you can do or have done 
presently to try to address the issue of inappropriate steel 
dumping into America's market?
    Ambassador FROMAN. Well, I have--we have met with the steel 
industry on a regular basis. It is something that we know is of 
great concern. And, therefore, we are monitoring it closely.
    With regard to those particular issues of Turkey and Mexico 
and the anti-dumping CVD cases, I have really got to refer you 
to the Commerce Department and the ITC, because those are 
procedures under their mechanisms. They are quasi-adjudicatory, 
and we are not involved in those. But the situation in the 
steel sector itself, in the steel industry globally, is 
something that we do monitor closely and want to continue to 
pursue to see if there are things that we can do through our 
trade dialogs to try and address some of the concerns that the 
U.S. steel industry has.
    Mr. REED. And could you give me any indication, like ideas 
along those lines that you would be considering to pursue?
    Ambassador FROMAN. Well, you know, one thing that has come 
up in the context of our China dialog is the concern about 
over-capacity. There is clearly over-capacity in the global 
steel sector. It is something that China itself has flagged as 
an issue that they are concerned about, domestically.
    And so, having a dialog with them, with other major steel 
manufacturing countries about the situation in the market about 
over-capacity is one mechanism that we are exploring to see if 
we can make some progress on that issue.
    Mr. REED. So it sounds as if they are engaging in that 
conversation, and there is a willingness--because I am aware of 
the capacity issue, and that is definitely something that was 
also referenced in the same steel caucus hearing.
    And, with that, it has been a long day, and I have no 
further questions. And with that, I yield back, Mr. Chairman.
    Chairman CAMP. Well, thank you very much. Again, Ambassador 
Froman, thank you for answering every question that the 
committee put forward to you in your appearance today. And look 
forward to working with you as we move forward on all the 
important issues that we have been discussed.
    And, with that, this hearing is adjourned.
    [Whereupon, at 12:27 p.m., the Committee was adjourned.]
    [Submissions for the Record follow:]
                       American Chemistry Council


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                Citizen Trade Policy Commission of Maine

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                        Doctors Without Borders

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                      Outdoor Industry Association

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Rubber and Plastic Footwear Manufacturers Association

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                 The American Council of Life Insurers

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  The American Farm Bureau Federation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   The Express Association of America

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                        U.S. Chamber of Commerce

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   MATERIAL SUBMITTED FOR THE RECORD
                       Questions For The Record:
                      Representative Dave Reichert


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
